Report No. D-2010-002         October 19, 2009




Summary of DoD Office of the Inspector General
      Audits of Financial Management
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Office of Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Audits
To suggest or to request audits, contact the Office of the Deputy Inspector General for
Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CFO                           Chief Financial Officer
DFAS                          Defense Finance and Accounting Service
FMR                           Financial Management Regulation
GAO                           Government Accountability Office
GF                            General Fund
OMB                           Office of Management and Budget
SFFAS                         Statement of Federal Financial Accounting Standards
SFFAC                         Statement of Federal Financial Accounting Concepts
USACE                         U.S. Army Corps of Engineers
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/DOD Chief
                                Financial Officer
WCF                           Working Capital Fund
                                      INSPECTOR GENERAL 

                                     DEPARTMENT OF DEFENSE 

                                      400 ARMY NAVY DR IVE 

                                 ARLINGTON, VIRG INIA 22202-4704 





                                                                                   October 19, 2009


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR UNDER SECRETARY OF
              DEFENSE (COMPTROLLER)/ DOD CHIEF FINANCIAL OFFICER


SUBJECT: Summary of DOD Office ofInspector General Audits of Financial Management
         (Report No. D-2010-002)

We are providing this report for your infotll1ation and use. We did not issue a draft report because
this report sunm1arizes material that was already published. This report is a summary of DOD
Office ofInspector General audit reports related to DOD's financial management that were issued
from FY 2004 through FY 2008 . This report contains no recommendations; therefore, written
comments are not required.

Questions should be directed to Ms. Amy L. Mathews at (703) 601-5870.




                                             Patricia A. Marsh
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. 2010-002 (Project No. D2009-D000FF-0194.000) 	                          October 19, 2009


              Results in Brief: Summary of DOD Office of
              Inspector General Audits of Financial
              Management

What We Did
Our overall objective was to summarize the                3.		 Accounts Receivable
DOD Office of Inspector General reports that              4.		 Inventory
discussed deficiencies in financial management            5.		 Operating Materials and Supplies
within DOD. Specifically, we reviewed and                 6.		 General Property, Plant, and Equipment
summarized the financial management-related               7.		 Government-Furnished Material and
audit reports that the DOD Office of Inspector                 Contractor-Acquired Material
General issued from FY 2004 through FY 2008.              8.		 Accounts Payable
These reports discussed issues related to the             9.		 Environmental Liabilities
Government Accountability Office high-risk                10. Statement of Net Costs
area of financial management.                             11. Intragovernmental Eliminations
                                                          12. Other Accounting Entries
This summary could be used by DOD financial               13. Reconciliation of Net Cost of Operations
managers to monitor areas that require enhanced                to Budget
internal control and financial management
improvements, and stress the importance of             In addition to the 13 material weaknesses, we
obtaining sustainable results.                         reported on 3 other issue areas as follows:

                                                          1.		 Inadequate Audit Trails
What We Found                                             2.		 Internal Controls
The DOD Office of the Inspector General issued            3.		 Compliance With Laws and Regulations
255 reports during FY 2004 through FY 2008
that pertain to financial management. As part of       What We Recommend
our audit of the FY 2008 DOD Agency-wide
financial statements, DOD management                   We are not making any recommendations in this
acknowledged that 13 previously-identified             report because the recommendations made in
material weaknesses continued to exist.                the respective individual reports, if
Therefore, we grouped the deficiencies                 implemented, should correct the issues
discussed in the reports by the 13 material            identified.
weaknesses as follows:
                                                       Management Comments
   1.		 Financial Management Systems                   We do not require a written response to this
   2.		 Fund Balance with Treasury                     report.




                                                   i
Report No. 2010-002 (Project No. D2009-D000FF-0194.000)           October 19, 2009

Recommendations Table
Management                                  Recommendations     No Additional
                                            Requiring Comment   Comments Required
Under Secretary of Defense                  None                None
(Comptroller)/DOD Chief Financial Officer




                                            ii
Table of Contents

Introduction


      Objective                                     1

      Background                                    1

      Review of Internal Controls                   2


Audit Coverage of Financial Management Functions    3



Summary                                            17 


Appendices
     A. Scope and Methodology                      18 

     B. Required Audits                            19 

     C. Issue Areas by Audit Report                20 

     D. DOD Office of Inspector General Reports    27 

Introduction
Objective
Our overall objective was to provide DOD financial managers with a summary of major
issue areas identified in DOD Office of Inspector General (OIG) audit reports issued
from FY 2004 through FY 2008 that involve the Government Accountability Office
(GAO) high-risk area of financial management. We believe that this summary could be
helpful in monitoring areas that require enhanced internal control and financial
management improvements, and stressing the importance of obtaining sustainable results.
See Appendix A for our scope and methodology.

Background
DOD financial management covers a complex array of financial topics – including
procurement, inventory, payroll, asset management, and real property – across a very
complex organizational structure. The FY 2008 DOD Agency-wide financial statements
reported about $1.7 trillion in assets, $2.1 trillion in liabilities, and $676 billion in net
costs of operations.

The Chief Financial Officers Act of 1990 identified DOD as one of several agencies
required to establish a position for a Chief Financial Officer (CFO) and to prepare and
submit to the Office of Management and Budget (OMB) financial statements that were
audited by either the Inspector General or an independent public accountant. Under the
CFO Act requirements established by OMB, DOD is to prepare and obtain an audit
opinion on nine financial statements.

Beginning in 1991, DOD began preparing and submitting financial statements for audit.
However, DOD OIG audits of those financial statements for FYs 1991 through 2001
identified pervasive and long-standing material weaknesses which caused those financial
statements to be unauditable. As a result, Congress passed the “National Defense
Authorization Act for Fiscal Year 2002,” on December 28, 2001, that limits the amount
of audit work performed by the DOD OIG under the CFO Act based on management’s
representation regarding the reliability of the financial statements. For FY 2002, the
Under Secretary of Defense (Comptroller)/DOD Chief Financial Officer (USD[C]/CFO)
represented to the DOD OIG that 8 of the 9 required financial statements 1 were not
reliable due to the 13 material weaknesses that the DOD OIG had previously identified.
Accordingly, the DOD OIG limited audit work and issued a disclaimer of opinion on
those eight financial statements. The Military Retirement Fund received a clean audit
opinion.




1
  This represents financial statements for the DOD Agency-wide; General and Working Capital Funds for
the Army, Navy and Air Force; the U.S. Army Corps of Engineers; and the Military Retirement Fund.

                                                  1
Since FY 2002, DOD has made minimal progress in achieving auditability at the entity
financial statement level or at the DOD Agency-wide level. USD(C)/CFO has continued
to represent that the DOD Agency-wide financial statements remain unreliable because of
the 13 auditor-identified material weaknesses. For FY 2008, USD(C)/CFO represented
that 7 of the 9 financial statements remained unreliable. As a result, the DOD OIG issued
a disclaimer of opinion for those seven financial statements. The remaining two entities’
financial statements - Military Retirement Fund and U.S. Army Corps of Engineers
(USACE) Civil Works Program - received clean audit opinions. In addition to the nine
financial statement audits required by the CFO Act, the Senate Select Committee on
Intelligence requires audited financial statements of four Intelligence agencies, and DOD
requires that 20 others prepare internal, stand-alone annual audited financial statements.
Of the 33 financial reporting entities, for FY 2008, only 18 received audit opinions (11
disclaimers, 1 qualified, and 6 unqualified [clean].) See Appendix B for a list of the 33
financial statements for which Congress, OMB, or DOD require audits.

Recognizing the need for financial reporting improvements, DOD published its first
Financial Improvement and Audit Readiness Plan in December 2005. The purpose of the
Plan was to provide a roadmap to fix internal controls, correct processes, and obtain an
unqualified opinion on DOD’s financial statements. The Plan set milestones for
resolving problems affecting the accuracy, reliability, and timeliness of financial
information and focused on incremental improvements in line items or segments, but
DOD has made minimal progress. Additionally, as DOD corrects internal control
weaknesses in these areas, the sustainability of improvements will be key to achieving
long-term financial statement-level progress. OMB Circular A-123 may help with the
sustainability of DOD’s corrective actions; however, sustaining improvements while
aggressively executing its financial improvement in the remaining areas will continue to
be a challenge for DOD.

Government Accountability Office High-Risk Area
GAO has identified DOD financial management as an area of high-risk for fraud, waste,
abuse, and mismanagement. According to GAO, DOD’s pervasive financial and related
business management and system deficiencies continue to adversely affect its ability to
control costs; ensure basic accountability; anticipate future costs and claims on the
budget; measure performance; maintain funds control; prevent and detect fraud, waste,
and abuse; and address pressing management issues.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, defines a material internal control weakness as a reportable condition
that is significant enough to report to the next higher level. Material internal control
weaknesses were identified in 137 of the 255 reports we reviewed. We are making no
recommendations because the recommendations made in the respective individual
reports, if implemented, should correct the material weaknesses identified.




                                             2


Audit Coverage of Financial Management
Functions
Between FY 2004 and the end of FY 2008, the DOD OIG Defense Business Operations
Directorate issued 255 reports 2 that discussed issues pertaining to financial management.
These reports included the financial statement opinion and internal control and
compliance with laws and regulations reports required under the CFO Act and other
financial-related reports, such as internal control and financial system review. The
Defense Business Operations Directorate also reviewed many aspects of DOD’s
adherence to laws and regulations, specifically the Prompt Payment Act, Improper
Payment Act, Antideficiency Act, and the Debt Collections and Improvement Act.

As part of our audit of the FY 2008 DOD Agency-wide financial statements, DOD
management acknowledged that 13 previously-identified material weaknesses continued
to exist. Therefore, we grouped the deficiencies discussed in the reports by the 13
material weaknesses, as follows:

    1. Financial Management Systems
    2. Fund Balance with Treasury
    3. Accounts Receivable
    4. Inventory
    5. Operating Materials and Supplies
    6. General Property, Plant, and Equipment
    7. Government-Furnished Material and Contractor-Acquired Material
    8. Accounts Payable
    9. Environmental Liabilities
    10. Statement of Net Costs
    11. Intragovernmental Eliminations
    12. Other Accounting Entries
    13. Reconciliation of Net Cost of Operations to Budget

In addition to the 13 material weaknesses, we also reported on 3 other issue areas as
follows:

    1. Inadequate Audit Trails
    2. Internal Controls
    3. Compliance With Laws and Regulations

Appendix A explains the methodology we used in reviewing these reports and how we
determined the issue areas to summarize for this report. Appendix B lists the 33 financial


2
  The Directorate actually issued 286 reports, but 31 were removed from our analysis because they did not
identify findings or were related to acquisition or contracting.

                                                    3
statements for which Congress, OMB or DOD require audits. Appendix C contains a list
of the issues areas by report number. Most of the reports identified more than one issue
area. Appendix D lists all of the reports discussed in this report and a Web site reference
to obtain copies. Each issue area and specific examples of problems identified in
individual reports are discussed in the following sections.

Material Weaknesses
Statement on Auditing Standards No. 112, “Communicating Internal Control Related
Matters Identified in an Audit,” defines a material weakness as a significant deficiency,
or a combination of significant deficiencies, resulting in more than a remote likelihood
that a material misstatement of the financial statements will not be prevented or
detected. 3 DOD continues to acknowledge the following 13 material weaknesses related
to its Agency-wide Financial Statements.

Material Weakness 1. Financial Management Systems
Criteria
Statement of Federal Financial Accounting Concepts (SFFAC) No. 1, “Objectives of
Federal Financial Reporting,” requires financial management system controls that are
adequate to ensure that transactions comply with budgetary and financial laws and other
requirements, are consistent with the purposes authorized, and are recorded in accordance
with Federal accounting standards. SFFAC No. 1 also requires financial management
system controls to ensure that assets are properly safeguarded to deter fraud, waste, and
abuse, and that performance measurement information is adequately supported.

Results
In 131 of the reports, we discussed deficiencies in DOD’s financial management systems.
USD(C)/CFO acknowledged that DOD financial management and feeder systems do not
substantially comply with Federal financial management system requirements. DOD
financial management and feeder systems were not designed to adequately support
various material amounts on the financial statements. These deficiencies in financial
management and feeder systems, as well as inadequate DOD business processes, prevent
DOD from collecting and reporting financial and performance information that is
accurate, reliable, and timely. Following are examples of reports related to financial
management systems.

    		 Our audit of the Capital Asset Management System-Military Equipment identified
        internal control weaknesses that affected processing and reporting of military
        equipment financial data. The weaknesses found were related to entity-wide
        security program planning and management, access controls, application software
        development and change controls, system software, segregation of duties, and
        service continuity. The deficient controls created system vulnerabilities that


3
 The term “remote” is defined as when the chance of a future event or events occurring is slight.
Therefore, the likelihood of an event is “more than remote” when it is at least reasonably possible.

                                                      4
      potentially jeopardize the integrity, confidentiality, and availability of data
      reported by the Capital Asset Management System-Military Equipment (D-2008-
      091, May 13, 2008).

  		 The Army did not accurately and efficiently transfer construction-in-process costs
      between its accounting and property management systems. As a result, the Army
      could not ensure the accuracy and completeness of the acquisition costs of its real
      property assets. Also, the Army expended resources to perform duplicate entry of
      cost data into its systems. The Army needs to be able to transfer construction costs
      from the construction agent to the installations that will account for the real
      property assets. In addition, the Army should develop system capabilities in
      accounting systems to capture all of the relevant construction costs and send
      acquisition costs to the property management system when placing assets in
      service (D-2008-072, March 28, 2008).

Material Weakness 2. Fund Balance with Treasury
Criteria
Statement of Federal Financial Accounting Standards (SFFAS) No. 1, “Accounting for
Selected Assets and Liabilities,” the U.S. Treasury Manual, and DOD Financial
Management Regulation 7000.14-R (FMR) require DOD to resolve financial and
accounting inconsistencies to accurately report Fund Balance with Treasury.

Results
In 47 of the reports, we discussed deficiencies in DOD’s Fund Balance with Treasury.
DOD continues to have inconsistencies related to in-transit disbursements, unmatched
disbursements, negative unliquidated obligations, unreconciled differences in suspense
accounts, and unreconciled differences between U.S. Treasury records and DOD
accounting records. Following are examples of reports related to Fund Balance with
Treasury.

  		 The Disbursing Operations Directorate at the Defense Finance and Accounting
      Service (DFAS), Indianapolis, did not reconcile the “Statement of Differences-
      Deposits,” within 2 months as a loss or overage of funds. As a result, there was a
      risk that actual losses of funds would not be identified in a timely manner and
      agency managers could overspend or overobligate because they did not have
      current and accurate information on amounts in their Fund Balance with Treasury
      accounts. Also, unreconciled differences could impact Fund Balance with
      Treasury amounts reported in the financial statements (D-2008-052, February 19,
      2008).

  		 The National Geospatial-Intelligence Agency continues to experience difficulties
      reconciling all transactions posted to the Fund Balance with Treasury general
      ledger account. These difficulties persist largely because of deficiencies
      throughout the accounting, reporting, and reconciling processes. Specifically, the
      Defense Finance and Accounting Service had not established adequate procedures

                                           5


      to identify and record in-transit disbursement and collection transactions, and
      could not provide complete information, including disbursement voucher numbers,
      for transactions included on the Cash Management Report and Detail Pile Report
      (D-2008-044, January 31, 2008).

Material Weakness 3. Accounts Receivable
Criteria
According to SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” a
receivable should be recognized when a Federal entity establishes a claim to cash or other
assets against other entities, based on either legal provisions or goods or services
provided.

Results
In 26 of the reports, we discussed deficiencies in DOD’s accounts receivable. DOD
acknowledged that it is unable to accurately record, report, collect, and reconcile
intragovernmental accounts receivable as well as accounts receivable due from the
public. DOD identified accounts receivable as a material weakness based on its FY 2008
assessment of internal control over financial reporting, as required by OMB Circular
A-123, Appendix A. Also, our independent auditor’s reports on internal control for the
FY 2008 Navy General Fund (GF) and Working Capital Fund (WCF), Army GF, and the
USACE Civil Works revealed accounts receivable to be a material weakness. These
Components’ accounts represented approximately 58 percent of the DOD Agency-wide
combined accounts receivable balance as of September 30, 2008. Following is an
example of a report on accounts receivable.

   		 DFAS Cleveland performed departmental-level trading partner adjustments valued
       at $51.8 million that ultimately impacted the mid-year FY 2005 balance sheet.
       However, DFAS provided insufficient documentation to support the adjustments
       or to trace transaction amounts to source data. As a result, auditors were not able
       to verify $51.8 million in trading partner adjustments to the accounts receivable
       balance sheet amount. Inability to document adjustments and transaction amounts
       significantly impacts the audit readiness of accounts receivable (D-2007-004,
       October 12, 2006)

Material Weakness 4. Inventory
Criteria
SFFAS No. 3, “Accounting for Inventory and Related Property,” requires DOD to use the
historical cost, the latest acquisition cost (adjusted for holding gains and losses), or the
moving average cost for valuing inventory.

Results
In 38 of the reports, we discussed deficiencies in DOD’s inventory valuation. DOD
acknowledged that the existing inventory value for most activities is not reported in
accordance with accounting principles generally accepted in the United States, and

                                             6
DOD’s legacy systems do not maintain the historical cost data necessary to comply with
guidance. Also, DOD does not distinguish between Inventory Held for Sale and
Inventory Held in Reserve for Future Sale, as required. Following are examples of
reports related to inventory.

  		 The Army Life Cycle Management Commands did not adequately review
      inventory accounting adjustments or correct the erroneous, missing, or duplicate
      supply transactions causing discrepancies in inventory balances recorded in the
      Distribution Standard System and the Army Working Capital supply system. Not
      reviewing and correcting adjustments results in inaccurate inventory records;
      distorted reports that inventory managers use to make decisions to buy, repair, and
      excess material; and unreliable and inaccurate financial reports used to measure
      the performance of the Army WCF Support Management, Army activity group
      (D-2008-090, May 13, 2008).

  		 The inventory reconciliation process at the Defense Logistics Agency did not
      adequately fulfill DOD financial and operational requirements. Specifically, the
      automated portion of the process did not accurately select reconciliation items for
      causative research in accordance with DOD criteria, calculate accurate
      adjustments, post adjustments reversals to the proper general ledger accounts, and
      maintain sufficient audit trails. Further, personnel responsible for manual
      causative research did not perform all required research, consistently perform
      adequate causative research and post proper adjustments, complete causative
      research in a timely manner, and request special physical inventories when
      necessary. The control weaknesses impact the overall integrity of the inventory
      records that DOD managers rely on for operational mission decisions and financial
      reporting purposes (D-2008-081, April 25, 2008).

Material Weakness 5. Operating Materials and Supplies
Criteria
SFFAS No. 3, “Accounting for Inventory and Related Property,” states that operating
materials and supplies must be expensed when the items are consumed.

Results
In 18 of the reports, we discussed deficiencies in DOD’s operating materials and supplies
account. DOD has acknowledged that significant amounts of operating materials and
supplies were expensed when purchased, instead of when consumed. In addition, DOD
cannot accurately report the value of operating materials and supplies, which causes the
potential for a misstatement in financial reporting. Following is an example of a report
related to operating materials and supplies.

  		 The Navy Air Systems Command did not accurately report the sponsor-owned
      material it included in the Navy’s FY 2006 Financial Statements. The Navy
      misclassified the material and overstated its reported value at the four locations we
      visited. More than $2.5 million of sponsor-owned material was improperly

                                            7
      classified and reported as operating materials and supplies, including $1.9 billion
      of special tooling and test equipment, $481.6 million of aviation support
      equipment held for Foreign Military Sales, and $113.7 million of general support
      equipment. The Naval Air Systems Command needed to ensure that its financial
      reporting of sponsor-owned material complied with SFFAS Nos. 3 and 6. Also, it
      needed to perform a complete reconciliation of its sponsor-owned material
      inventory amounts recorded in the Real-time Reutilization Asset Management
      System with the actual amounts of on-hand inventory (D-2007-085, April 23,
      2007).


Material Weakness 6. General Property, Plant, and Equipment
Criteria
SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” requires DOD to record
general property, plant, and equipment at acquisition cost, capitalize improvement costs,
and recognize depreciation expense.

Results
In 60 of the reports, we discussed deficiencies in DOD’s general property, plant, and
equipment. The cost and depreciation of the DOD general property, plant, and equipment
are not reliably reported because of (1) an accounting requirement that classified military
equipment as general property, plant, and equipment (such costs were previously
expensed); (2) a lack of supporting documentation for aged general property, plant, and
equipment items; and (3) a failure to integrate most legacy property and logistics systems
with acquisition and financial systems. Also, DOD property and logistics systems were
not designed to capture acquisition cost and the cost of modifications and upgrades or to
calculate depreciation.

DOD has acknowledged that it does not currently meet accounting principles generally
accepted in the United States for the financial reporting of personal property and that
documentation for personal property is neither accurate nor reliable. In addition, DOD
does not have adequate internal controls in place to provide reasonable assurance that real
property assets are identified and properly reported in its financial reports. DOD has also
acknowledged that its inability to accurately report the value of military equipment
increases the risk that the financial statements are materially misstated. Following are
examples of reports related to general property, plant, and equipment.

   		 The Army military equipment baseline values were misstated by at least
       $4.2 billion. In addition, the Army could not support ownership of at least 420
       military equipment end-items or the completeness of the military equipment
       program baseline. As a result, the Army could not rely on the baseline to assert
       that military equipment was ready for audit (D-2008-126, August 29, 2008).

   		 We could not validate the ending balance of $8.6 million in land assets reported on
       the FY 2004 USACE Financial Statements despite available documentation to

                                            8
      support USACE ownership of the land assets. Our FY 2002 sample results
      showed that USACE could not provide supporting documentation for $1.78 billion
      of the $2.35 billion (76 percent) that represented administrative cost. Further, the
      remaining costs that made up the statistical sample represented land tract costs that
      included unsupported costs for land tracts and unsupported values for land assets
      acquired through donations. In addition, the value of land assets could have been
      misstated because the ending balance included costs associated with land tracts
      that were disposed of and did not include costs of reservoirs that were
      misclassified as buildings and structures. As a result, the ending balance for land
      assets was not ready for substantive audit testing and audit (D-2005-051, April 6,
      2005).

Material Weakness 7. Government-Furnished Material and
Contractor-Acquired Material
Criteria
SFFAS No. 11, “Amendments to Accounting for Property, Plant, and Equipment,”
requires that property and equipment in the possession of a contractor for use in
accomplishing a contract be considered Government property. Such property should be
accounted for based on the nature of the item, regardless of who has possession.

Results
In nine of the reports, we discussed deficiencies in DOD’s government-furnished material
and contractor-acquired material. DOD has acknowledged that it is unable to comply
with the requirements for government-furnished material and contractor-acquired
material. As a result, the value of DOD property and material in the possession of
contractors is not reliably reported. Following is an example of a report related to
government-furnished material and contractor-acquired material.

  		 The Space and Naval Warfare Systems Command did not accurately report the
      amount of its sponsor-owned material located at the Systems Centers. About
      $130.7 million of the assets were either misclassified or overstated. Also, about
      $84.1 million in assets not owned by Space and Naval Warfare Systems Command
      were included in the amounts reported. The Space and Naval Warfare Systems
      Command inventory controls did not ensure that sponsor-owned material was
      properly reported and updated in a timely manner. In addition, sponsor-owned
      material was being retained and stored beyond allowable time periods. As a result
      of these conditions, the Space and Naval Warfare Systems Command was not in
      compliance with provisions of SFFAS No. 3 as it relates to operating materials and
      supplies. The Navy also lacked total asset visibility over sponsor-owned material
      at the Space and Naval Warfare Systems Center Charleston (D2007-048, January
      26, 2007).




                                            9


Material Weakness 8. Accounts Payable
Criteria
According to SFFAS No. 5, “Accounting for Liabilities,” a liability is recognized when
one party receives goods or services in return for a promise to provide money or other
resources in the future.

Results
In 58 of the reports, we discussed deficiencies in DOD’s accounts payable. DOD
acknowledged that it does not meet accounting standards for the financial reporting of
public accounts payable. DOD cannot support its accounts payable balances because it
lacks standard procedures for recording, reporting, and reconciling the amounts among
the financial, accounting, and reporting systems. DOD identified accounts payable as a
material weakness based on its FY 2008 assessment of internal control over financial
reporting, as required by OMB Circular A-123, Appendix A.

Additionally, our independent auditor’s reports on internal control for the FY 2008 Army
GF and WCF, Navy GF and WCF, and the USACE Civil Works, identified accounts
payable as a material weakness. These Components represented more than 55 percent of
the DOD Agency-wide combined accounts payable balance as of September 30, 2008.
Following are examples of reports related to accounts payable.

    		 DFAS Columbus did not properly identify and value the Military Department
        accounts payable balances reported in its 742 Report. 4 Specifically, DFAS
        Columbus inaccurately reported 73 percent of the $3 billion 742 Report accounts
        payable balances ($2.1 billion overstated and $0.1 billion understated) and did not
        include at least $453.9 million of valid accounts payable in the DOD accounts
        payable balance (D-2008-117, August 14, 2008).

    		 Accounts payable transactions were not recorded in a timely manner in the DFAS
        accounting system for the Department of the Navy GF. Specifically, 89 of 199
        vendor payment transactions sampled were not recorded in compliance with DOD
        FMR, which requires establishing the accounts payable on the same day as
        performance notification is received. The timely establishment of accounts
        payable transactions would allow for immediate recognition of liabilities. As a
        result, accounts payable balances totaling $212.7 million were misstated in the
        Department of the Navy GF (D-2007-041, January 2, 2007).




4
 This is also called the “Unmatched Detail Report,” which captures accounts payable balances for goods or
services accepted within the last 6 months that are not matched to a contractor invoice.

                                                   10
Material Weakness 9. Environmental Liabilities
Criteria
DOD FMR, Volume 4, Chapter 13, “Environmental Liabilities,” states that
environmental liabilities must be recognized on the financial statements for probable and
measurable future outflows or expenditures of resources for environmental cleanup,
closure, and disposal actions. The Regulation continues by stating that environmental
liabilities are generally accounting estimates because the extent of the costs cannot be
determined until completing cleanup and/or disposal operations. Additionally, the
organizations preparing the estimates must retain adequate documentation of quality
review, estimator and reviewer qualifications, data sources, estimating methodologies,
accreditation including the parametric models and internal control procedures.

Results
In 22 of the reports, we discussed deficiencies in DOD’s environmental liabilities. DOD
has acknowledged that its internal control for reporting environmental liabilities does not
provide reasonable assurance that cleanup costs for all of its ongoing, inactive, closed,
and disposal operations are identified, consistently estimated, and appropriately reported.
In addition, guidance and audit trails for estimating environmental liabilities are
insufficient, and the inventory of ranges and operational activities is incomplete. DOD
has also acknowledged uncertainty regarding the accounting estimates used to calculate
the reported environmental liabilities. Following is an example of a report related to
environmental liabilities.

   		 The Air Force did not have adequate internal controls over the complication of
       cost-to-complete environmental liabilities estimates reported for active and Base
       Realignment and Closure installations. As a result, cost-to-complete estimates
       used in support of environmental liabilities and disposal liabilities by the Air Force
       active and Base Realignment and Closure installations were unreliable (D-2006-
       062, March 15, 2006).

Material Weakness 10. Statement of Net Costs
Criteria
SFFAC No. 2, “Entity and Display,” requires the Statement of Net Cost to provide an
understanding of the net costs of each organization and each program. In addition, the
Statement of Net Cost should provide gross and net cost information that can be related
to the amount of outputs and outcomes for the programs and organizations.

Results

In 26 of the reports, we discussed deficiencies in DOD’s Statement of Net Costs. DOD
acknowledged the following deficiencies related to the Statement of Net Cost: (1) the
amounts presented for the GFs may not report actual accrued costs, (2) although WCFs
are generally recorded on an accrual basis, as required by accounting principles generally
accepted in the United States, the systems do not always capture actual costs in a timely
                                             11
manner, (3) the Statement of Net Cost is not presented by program, in alignment with
major goals and outputs described in DOD strategic and performance plans as required
by the Government Performance and Results Act, and (4) revenues and expenses are
reported by appropriation category because financial processes and systems do not collect
costs according to performance measures. Although none of the standard audit reports
discussed the Statement of Net Costs directly, 26 of the 40 disclaimers cited the issue as
one of the internal control weaknesses that led to the disclaimer.

Material Weakness 11. Intragovernmental Eliminations
Criteria
SFFAS No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
Government,” states that inter-entity expenses or assets and financing sources should be
eliminated for any consolidated financial statements covering both entities. Further, the
DOD FMR, Volume 6B, Chapter 13, states that all DOD reporting entities are required to
report intragovernmental account balances in their financial statements and eliminate
appropriate intra-DOD balances. Additionally, the DOD FMR states that eliminating
entries must be based on the information provided by the seller or service provider unless
a waiver is obtained.

Results
In 25 of the reports, we discussed deficiencies in DOD’s intragovernmental eliminations.
DOD disclosed that it cannot accurately identify most of its intragovernmental
transactions by customer because DOD systems do not track the buyer and seller data
needed to match related transactions. In addition, DOD is unable to fully reconcile
intragovernmental transactions with all Federal partners. DOD acknowledged that its
inability to reconcile most intragovernmental transactions results in adjustments that
cannot be fully supported. Following is an example of a report related to
intragovernmental eliminations.

   		 DOD management has not implemented control activities or internal controls over
       financial reporting related to accounts payable that effectively correct or
       compensate for the following deficiencies.
           o		 Components are unable to identify intragovernmental transactions by
               customer, the Components cannot ensure that they are properly
               eliminating or disclosing all intragovernmental accounts payable in the
               financial statements, and the Components adjust their non-DOD
               intragovernmental accounts payable amounts to agree to seller-side
               balances for financial statement reporting. As a result, reported accounts
               payable balances do not agree with the transaction detail in supporting
               accounting systems.
           o		 The actual or constructive receipt or acceptance of goods and services
               should be the basis for recording accounts payable. Internal controls are
               not adequate to ensure the Components always follow this policy.
           o		 Procedures for accounting recognition of unbilled purchases of goods and
               services are not adequate.

                                           12
           o		 DOD records and reports accounts payable balances in its financial
               statements without reconciling to transaction detail in supporting
               accounting systems.
           o		 Aged Accounts Payable are not reviewed to identify and resolve balances
               that may no longer be valid or warrant investigation.

       DOD will not be able to report accounts payable in compliance with accounting
       principles generally accepted in the United States without correcting these
       material internal control weaknesses (D-2007-091, May 4, 2007).


Material Weakness 12. Other Accounting Entries
Criteria
DOD FMR, Volume 6A, Chapter 2, “Financial Reports, Roles, and Responsibilities,”
states that DFAS and DOD Components are required to support accounting adjustments
by written documentation sufficiently detailed to provide an audit trail to source
transactions that require the adjustments. This documentation is to contain the rationale
and justification for the adjustment, detailed numbers and dollar amounts of errors or
conditions that relate to the transactions or records that are proposed for adjustment, date
of the adjustment, and name and position of the individual approving the adjustment.

Results
In 63 of the reports, we discussed deficiencies in DOD’s other accounting entries. DOD
acknowledged that it continues to enter material amounts of unsupported accounting
entries. Following are examples of reports related to other accounting entries.

   		 We audited a sample of 160 journal vouchers processed by DFAS. We identified
       37 journal vouchers with a net value of $4.1 billion as unsupported. We also
       identified 110 of these journal vouchers with operational control deficiencies. As
       a result, we estimate that DFAS processed 220 unsupported journal vouchers and
       682 journal vouchers with operational control deficiencies (D-2008-084, April 25,
       2008).

   		 DFAS Indianapolis officials did not properly review and approve 102 adjustments
       for $1.1 trillion made to the Army financial statement data before closing the
       accounting records. As a result, DFAS Indianapolis could process erroneous
       journal vouchers that can only be corrected at the request of USD(C)/CFO and
       would require the Assistant Secretary of the Army (Financial Management and
       Comptroller) to reconfirm the statements (D-2008-055, February 22, 2008).




                                             13


Material Weakness 13. Reconciliation of Net Cost of Operations
to Budget
Criteria
SFFAS No. 7, “Accounting for Revenue and Other Financing Sources,” requires a
reconciliation of proprietary and budgetary information to assist users in understanding
the relationship between the net cost of operations and the budgetary resources obligated
by the entity during the period.

Results
In 24 of the reports, we discussed deficiencies in DOD’s reconciliation of net cost of
operations to budget. DOD acknowledged that it is unable to reconcile budgetary
obligations to net costs without making unsupported adjustments. Specifically, budgetary
data does not agree with proprietary expenses and capitalized assets. DOD made
unsupported adjustments of $7 billion (absolute value) to reconcile obligations to the
Statement of Net Cost. While none of the standard audit reports discussed this area
directly, 24 of the 40 disclaimers cited the issue as one of the internal control weaknesses
that led to the disclaimer.

Other Issue Areas
Other Issue Area 1. Inadequate Audit Trails
Criteria
DOD FMR, Volume 6A, Chapter 2, “Financial Reports Roles and Responsibilities,”
requires DOD Components to ensure that audit trails are maintained in sufficient detail to
permit tracing of transactions from their sources to their transmission to DFAS. The
Regulation stresses that audit trails are necessary to demonstrate the accuracy,
completeness, and timeliness of a transaction; and that audit trails provide documentary
support for all data generated by the DOD Component and submitted to DFAS for
recording in the accounting systems and use in financial reports.

Results
In 138 of the reports, we discussed deficiencies in the DOD’s inadequate audit trails.
DOD Components producing financial statements will be paying for audits of those
statements. If audit trails are time-consuming to follow, the Component will be paying
certified public accounting firms excessive amounts for struggling through an audit trail.
Also, a difficult audit trail could cause a disclaimer of opinion, if the auditors could not
complete their work in the allotted time. Adequate support would be anything that
convinces the auditors that the adjustment or entry was factually correct and was in
accordance with accounting principles generally accepted in the United States. Adequate
support could include such things as copies of source documents, explanations of
rationale, and methodology for accounting estimates. Following are examples of reports
related to inadequate auditor trails.


                                             14
   		 The Air Force and National Guard Bureau have not corrected previously identified
       material management control weaknesses involving the tracking and reporting of
       counterdrug funds. Specifically, the Air Fore and National Guard were unable to
       provide detailed transaction data to support $279 million of the $415.4 million
       counterdrug obligations reported to the Deputy Assistant Secretary of Defense for
       Counternarcotics, Counterproliferation, and Global Threats for FY 2006. As a
       result, a sufficient audit trail did not exist to validate the reported obligations
       (D-2008-061, March 7, 2008).

   		 The military treatment facilities we visited could not provide sufficient evidence
       that the Medical Expense and Performance Reporting System contained data that
       was accurate and complete. None of the facilities followed the accounting
       principles generally accepted in the United States needed to capture, record, and
       verify the accuracy of the expenses that those facilities incurred in FY 2005. The
       military treatment facilities:
            o		 used multiple accounting and personnel systems to document the cost of
                labor, supplies, and materials;
            o		 used cash-based accounting procedures instead of accrual-based
                accounting procedures to record costs;
            o		 did not have adequate cut-off procedures for capturing and reporting
                expenses;
            o		 did not prepare accounting reports, including a trial balance that would
                show aggregate costs; and
            o		 did not document processes that would permit reconciliation of expense
                data to accounting system and financial data.

   Finally, the military treatment facilities were not able to produce source documents to
   fully support hours worked (D-2007-073, March 21, 2007).


Other Issue Area 2. Internal Controls
Criteria
DOD Directive 5010.38, “Management Control Program,” requires DOD Components to
implement a comprehensive strategy for management controls that provides reasonable
assurance that “... programs and administrative and operating functions are efficiently and
effectively carried out in accordance with applicable law and management policy.” The
management control process should be integrated into the daily management practices of
all DOD managers. When developing the Management Control Program, DOD
managers should rely on all contributing information sources, including audits.

Results
In 251 of the reports, we discussed deficiencies in the DOD’s internal controls.
Following are examples of reports related to internal controls.



                                            15
  		 The Missile Defense Agency did not have adequate internal controls over
      governmental purchases. Specifically, the Missile Defense Agency did not
      properly manage the outgoing and incoming military interdepartmental purchase
      request processes. The internal controls were inadequate because the Missile
      Defense Agency did not follow applicable military interdepartmental purchase
      request regulations. As a result, the Missile Defense Agency personnel could not
      ensure that all purchases were in the best interest of the Government and complied
      with Federal, DOD, and the Missile Defense Agency regulations as well as public
      law (D-2007-117, August 20, 2007).

  		 Internal control was not effective to ensure that transactions processed in the
      acquisition of goods and services were properly accounted for in Air Force
      accounting records. Specifically, all transactions were not recognized, posted,
      subject to edit checks to ensure compliance with laws and regulations, and
      traceable to supporting documentation. As a result, the risk was high that periodic
      reports and annual financial statements were unreliable and materially misstated in
      FY 2003 and FY 2004. Left uncorrected, the internal control weaknesses could
      affect future reports, adversely affecting those who use the reports in their
      decision-making (D-2007-059, February 9, 2007).


Other Issue Area 3. Compliance With Laws and Regulations
Results
In 238 of the reports, we discussed deficiencies in DOD’s compliance with laws and
regulations. Following are examples of reports related to compliance with laws and
regulations.

  		 DFAS Columbus Debt Management Office reports and manages contractor debts
      in the Contract Debt System. The Debt Management Office did not have adequate
      controls to ensure debt files were processed in accordance with the Debt
      Collection and Improvement Act of 1996 and other pertinent guidance.
      Specifically, it did not require taxpayer identification numbers, did not
      appropriately transfer debt files to the Department of the Treasury, and did not
      adequately safeguard debt file records. As a result, the Debt Management Office
      was not fully compliant with the Debt Collection and Improvement Act of 1996,
      Federal Acquisition Regulations, and DOD FMR. This hinders the Debt
      Management Office’s ability to collect Department of the Navy public debt and
      properly report accounts receivable balances (D-2008-046, February 6, 2008).

  		 We substantiated the allegation that the DFAS Dayton Network did not always pay
      invoices in accordance with the Prompt Payment Act. For 61 of the 75 invoices in
      our judgmental sample, the offices in the DFAS Dayton Network did not use the
      proper payment information, including the receipt date and the proper payment
      terms that are required by the Prompt Payment Act. As a result, the DFAS Dayton
      Network made $91,673 in interest errors on 42 of those 61 invoices. The errors

                                          16
      were related to interest lost when DFAS Dayton Network made payments earlier
      than allowable by the Prompt Payment Act and when it overpaid or underpaid the
      interest due to the contractor for the late payment. There is an additional risk that
      DFAS Dayton Network will continue to overpay and underpay interest to
      contractors and will continue to pay invoices earlier than allowed by the Act,
      which can result in further interest lost to the Government (D-2007-061, March 1,
      2007).

Summary
Despite efforts and limited progress toward auditable financial statements, DOD still
struggles with material control weaknesses that make the financial data unreliable. Until
these and any other still unidentified material weaknesses are resolved, DOD will not be
able to meet its goal of an unqualified (clean) audit opinion.




                                            17


Appendix A. Scope and Methodology
This non-audit service report summarizes 255 final audit reports issued by the DOD OIG
Defense Business Operations Directorate from FY 2004 through FY 2008. Based on the
audit objectives, scope, and conclusions, these 255 reports discussed issues that pertained
to financial management within DOD.

We reviewed the findings, conclusions, and recommendations contained in these
255 reports; however, we did not review the supporting documentation from any of these
reports. We grouped the deficiencies discussed in the reports by the 13 previously-
identified material weaknesses, as follows:

   1. Financial Management Systems
   2. Fund Balance with Treasury
   3. Accounts Receivable
   4. Inventory
   5. Operating Materials and Supplies
   6. General Property, Plant, and Equipment
   7. Government-Furnished Material and Contractor-Acquired Material
   8. Accounts Payable
   9. Environmental Liabilities
   10. Statement of Net Costs
   11. Intragovernmental Eliminations
   12. Other Accounting Entries
   13. Reconciliation of Net Cost of Operations to Budget

In addition to the 13 material weaknesses, we also reported on 3 other issue areas, as
follows:

   1. Inadequate Audit Trails
   2. Internal Controls
   3. Compliance With Laws and Regulations


Use of Computer-Processed Data
We did not use computer-processed data to perform this review.

Prior Coverage
During the last 5 years, the DOD OIG did not issue any summary reports on financial
management.




                                            18


Appendix B. Required Audits


Financial Statement Reporting Entity           Audit Required By
Defense Agency-wide                            CFO Act/OMB
Army General Fund (GF)                         CFO Act/OMB
Army Working Capital Fund (WCF)                CFO Act/OMB
Navy GF                                        CFO Act/OMB
Navy WCF                                       CFO Act/OMB
Air Force GF                                   CFO Act/OMB
Air Force WCF                                  CFO Act/OMB
Military Retirement Fund                       CFO Act/OMB
U.S. Army Corps of Engineers                   CFO Act/OMB
Defense Intelligence Agency                    Senate Select Committee on Intelligence
National Reconnaissance Office                 Senate Select Committee on Intelligence
National Geospatial-Intelligence Agency        Senate Select Committee on Intelligence
National Security Agency                       Senate Select Committee on Intelligence
Medicare-Eligible Retiree Health Care Fund     DOD
Defense Logistics Agency GF                    DOD
Defense Logistics Agency WCF                   DOD
Defense Financial Accounting Service GF        DOD
Defense Financial Accounting Service WCF       DOD
Defense Information Systems Agency GF          DOD
Defense Information Systems Agency WCF         DOD
Defense Contract Audit Agency                  DOD
Missile Defense Agency                         DOD
Defense Advanced Research Projects Agency      DOD
Defense Commissary Agency GF                   DOD
Defense Commissary Agency WCF                  DOD
Defense Security Service GF                    DOD
Defense Threat Reduction Agency                DOD
United States Special Operations Command       DOD
Tricare Management Activity                    DOD
Service Medical Activity                       DOD
United States Marine Corps GF                  DOD
United States Marine Corps WCF                 DOD
Chemical and Biological Defense                DOD

                                        19


Appendix C. Issue Areas by Audit Report




                                                                                                                                         General Property, Plant, and




                                                                                                                                                                                                                                                                                                                          Reconciliation of Net Cost of
                                                Fund Balance with Treasury




                                                                                                                                                                                                                                                                                                                                                                              Compliance With Laws and
                                                                                                                                                                                                                                                                                               Other Accounting Entries
                                                                                                                                                                                                                      Environmental Liabilities
                                                                                                               Operating Materials and




                                                                                                                                                                        Material and Contractor-




                                                                                                                                                                                                                                                  Statement of Net Costs
                                                                                                                                                                        Government-Furnished
                         Financial Management




                                                                                                                                                                                                                                                                                                                          Operations to Budget
                                                                             Accounts Receivable




                                                                                                                                                                                                                                                                           Intragovernmental
                                                                                                                                                                                                   Accounts Payable
                                                                                                                                                                        Acquired Material




                                                                                                                                                                                                                                                                                                                                                          Internal Controls
                                                                                                                                                                                                                                                                           Eliminations




                                                                                                                                                                                                                                                                                                                                                                              Regulations

                                                                                                                                                                                                                                                                                                                                                                                                         Audit Trails
                                                                                                                                         Equipment
                                                                                                   Inventory


                                                                                                               Supplies
                         Systems




               Type of
 Report Number Report
 D-2008-139                    X                                                                                                                                                                                                                                                                                                                            X                         X                   X
 D-2008-138                    X                                                                                                                                                                                                                                                                                                                           X                         X                    X
 D-2008-132    FOUO            X                                                                                                                                                                    X                                                                                                                                                      X                          X
 D-2008-126                    X                                                                                                                  X                                                                                                                                                                                                        X                          X
 D-2008-123                                      X                                                                                                                                                                                                                                                                                                         X
 D-2008-121                                      X                                                                                                                                                                                                                                                                                                         X
 D-2008-117                    X                                                                                                                                                                    X                                                                                                                                                      X                         X
 D-2008-109    FOUO            X                                                                                                                                                                                                                                                                                                                            X                         X                   X
 D-2008-108                                                                                                                                                                                                                                                                                                                                                 X
 D-2008-106                                                                                                                                                                                                                                                                                                                                                 X                         X                   X
 D-2008-105                                                                                                                                                                                                                                                                                                                                                                           X
 D-2008-103                                                                                                                                       X                                                                                                                                                                                                         X                         X                   X
 D-2008-102                    X                                                                                                                  X                                                 X                                                                                           X                                                           X                         X                   X
 D-2008-101                    X                                                                                                                                                                                                                                                                                                                           X                          X
 D-2008-098                                                                                                                                                                                         X                                                                                                                                                      X                          X                   X
 D-2008-096                                                                                                                                                                                         X                                                                                                                                                      X                         X
 D-2008-093                                                                                                                                                                                         X                                                                                                                                                      X                          X
 D-2008-092                    X                                                                   X                                                                                                                                                                                                                                                       X
 D-2008-091                    X                                                                                                                  X                                                                                                                                                                                                        X                          X
 D-2008-090                    X                                                                   X                                                                                                                                                                                            X                                                           X                         X
 D-2008-085                                                                                                                                                                                                                                                                                                                                                 X                         X
 D-2008-084                                                                                                                                                                                                                                                                                     X                                                           X                         X
 D-2008-083                                                                                                                                                                                                                                                                                                                                                X                         X
 D-2008-081                    X                                                                   X                                                                                                                                                                                            X                                                          X                          X                   X
 D-2008-080                                                                                                                                                                                                                                                                                                                                                 X                         X
 D-2008-0 79                                                                                                                                                                                                                                                                                                                                               X                         X
 D-2008-077    FOUO            X                                                                                                                                                                                                                                                                                                                           X                         X
 D-2008-074                                                                                                                                       X                                                                                                                                                                                                        X                         X
 D-2008-072                    X                                                                                                                  X                                                                                                                                                                                                         X                         X                   X
 D-2008-069                                                                                        X                                                                                                                                                                                                                                                       X
 D-2008-063                    X                                                                                                                                                                    X                                                                                                                                                       X                         X
 D-2008-061                                                                                                                                                                                                                                                                                                                                                 X                         X                   X
 D-20O8-O55                                                                                                                                                                                                                                                                                     X                                                           X                         X
 D-2008-0 53                                                                                                                                                                                                                                                                                                                                                X                         X                   X
 D-2008-0 52                   X                 X                                                                                                                                                                                                                                              X                                                          X                          X
 D-2008-049                    X                                                                                                                                                                                                                                                                                                                           X
 D-2008-046                                                                   X                                                                                                                     X                                                                                                                                                      X                          X                   X
 D-2008-044                                      X                                                                                                                                                                                                                                                                                                         X                         X                    X
 D-2008-043                    X                                                                                                                                                                    X                                                                                                                                                      X                         X
 D-200S-042                                                                                                                                       X                                                                                                                                                                                                        X                         X




                                                                                                                                         20
                                                                                                                                           General Property, Plant, and




                                                                                                                                                                                                                                                                                                                            Reconciliation of Net Cost of
                                                  Fund Balance with Treasury




                                                                                                                                                                                                                                                                                                                                                                                Compliance With Laws and
                                                                                                                                                                                                                                                                                                 Other Accounting Entries
                                                                                                                                                                                                                        Environmental Liabilities
                                                                                                                                                                          Material and Contractor-
                                                                                                                 Operating Materials and




                                                                                                                                                                                                                                                    Statement of Net Costs
                                                                                                                                                                          Government-Furnished
                           Financial Management




                                                                                                                                                                                                                                                                                                                            Operations to Budget
                                                                               Accounts Receivable




                                                                                                                                                                                                                                                                             Intragovernmental
                                                                                                                                                                                                     Accounts Payable
                                                                                                                                                                          Acquired Material




                                                                                                                                                                                                                                                                                                                                                            Internal Controls
                                                                                                                                                                                                                                                                             Eliminations




                                                                                                                                                                                                                                                                                                                                                                                Regulations

                                                                                                                                                                                                                                                                                                                                                                                                           Audit Trails
                                                                                                                                           Equipment
                                                                                                     Inventory


                                                                                                                 Supplies
                           Systems
              Type of
Report Number Report
D-2008-041                       X                                                                                                                                                                                                                                                                                                                           X                          X
D-2008-040                       X                                                                                                                                                                                                                                                                                                                           X                         X
D-2008-031                       X                                                                                                                                                                                                                                                                                                                           X                          X
D-200S-025                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
D-2008-008                                         X                                                                                                                                                                                                                                              X                                                          X                          X                   X
D-2008-006                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2008-005    Classified         X                                                                                                                                                                    X                                                                                           X                                                          X                         X
D-2008-003                       X                 X                                                                                                                                                                                                                                                                                                         X                          X                   X
D-20O8-O02                       X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2008-001                                                                                                                                                                                                                                                                                                                                                    X                                             X
D-2007-133                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2007-129                                                                                                                                                                                                                                                                                                                                                   X                         X                    X
D-2007-122                                                                                                                                          X                                                                                                                                                                                                         X                         X                   X
D-2007-121                                                                                                                                                                                                                                                                                                                                                    X                         X                   X
D-2007-120                                                                                                                                                                                                                                                                                                                                                   X                         X                    X
U-2007-117                                                                                                                                                                                                                                                                                                                                                   X                          X
D-2007-114                       X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2007-113    FOUO                                                                                                                                                                                                                                                                                                                                                                     X
D-2007-110                                                                                                                                                                                            X                                                                                                                                                      X                          X
D-2007-109                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
D-2007-102                                                                                                                                                                                                                                                                                                                                                    X                         X
D-2007-101                       X                                                                                                                                                                                                                                                                                                                           X                         X
D-20O7-098                                                                      X                                                                                                                                                                                                                 X                                                          X                          X                   X
D-2007-097                                                                       X                                                                                                                                                                                                                X                                                           X                         X
D-2007-096    FOUO               X                                                                                                                                                                                                                                                                                                                            X                        X                    X
D-2007-095    l'OLIO                                                                                                                                                                                  X                                                                                                                                                      X                         X
D-2007-094    FOUO                                                                                                                                                                                                                                                                                                                                           X                         X                    X
D-2007-093                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
U-2007-091                       X                                                                                                                                                                    X                                                                                                                                                       X                        X                    X
D-2007-088                                                                                                                                                                                                                                                                                                                                                   X
D-2007-087                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D2007-086     Classified                                                        X                                                                                                                                                                                                                 X                                                          X                          X
D-2007-085                                                                                           X                  X                           X                                                                                                                                                                                                        X                         X                    X
15-2007-083                                                                                                                                                                                           X                                                                                                                                                       X                         X
D-2007-082                       X                                                                                                                                                                                                                                                                                                                            X                         X
D-2007-081                                                                                                                                                                                                                                                                                                                                                   X                         X
U-2007-077                       X                                                                                                                                                                    X                                                                                                                                                      X                          X
D-2007-075                                                                                                                                                                                                                                                                                                                                                   X                          X
D-2007-073                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2007-071                                         X                                                                                                                                                                                                                                                                                                         X                          X                   X




                                                                                                                                           21
                                                                                                                                           General Property, Plant, and




                                                                                                                                                                                                                                                                                                                            Reconciliation of Net Cost of
                                                  Fund Balance with Treasury




                                                                                                                                                                                                                                                                                                                                                                                Compliance With Laws and
                                                                                                                                                                                                                                                                                                 Other Accounting Entries
                                                                                                                                                                                                                        Environmental Liabilities
                                                                                                                                                                          Material and Contractor-
                                                                                                                 Operating Materials and




                                                                                                                                                                                                                                                    Statement of Net Costs
                           Financial Management




                                                                                                                                                                          Government-Furnished
                                                                               Accounts Receivable




                                                                                                                                                                                                                                                                                                                            Operations to Budget
                                                                                                                                                                                                                                                                             Intragovernmental
                                                                                                                                                                                                     Accounts Payable
                                                                                                                                                                          Acquired Material




                                                                                                                                                                                                                                                                                                                                                            Internal Controls
                                                                                                                                                                                                                                                                             Eliminations




                                                                                                                                                                                                                                                                                                                                                                                Regulations

                                                                                                                                                                                                                                                                                                                                                                                                           Audit Trails
                                                                                                                                           Equipment
                                                                                                     Inventory


                                                                                                                 Supplies
                           Systems
              Type of
Report Number Report
D-2007-065                       X                                                                                                                                                                    X                                                                                                                                                      X                          X                   X
D-2007-063                                                                                                                                                                                                                                                                                        X                                                          X                         X                    X
D-2007-062                                                                                                                                                                                                                                                                                                                                                   X                          X
D-2007-061                                                                                                                                                                                            X                                                                                                                                                      X                          X
D-2007-059                       X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2007-058                                         X                                                                                                                                                                                                                                                                                                          X                         X                   X
D-2007-057    FOUO               X                                                                                                                                                                                                                                                                                                                           X                         X                    X
D-2007-0 56                      X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2007-052                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
D-2007-048                                                                                           X                  X                           X                                                                                                                                                                                                         X                         X
D-2007-041                                                                                                                                                                                            X                                                                                                                                                       X                         X                   X
D-2007-040                       X                                                                                                                                                                                                                                                                                                                           X                         X
D-2007-035                                                                                                                                                                                            X                                                                                                                                                       X                         X
D2007-029     Classified         X                                                                                                                  X                                                                                                                                                                                                         X                         X                   X
D-2007-028                                         X                                                                                                                                                                                                                                                                                                         X                         X
U-2007-027                                                                                                                                                                                            X                                                                                                                                                      X                          X
D-2007-024                       X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2007-022                       X                                                                                                                                                                                                                                                                                                                           X                         X
D-2007-009                                                                                           X                                                                                                                                                                                                                                                       X                                              X
D-2007-004                       X                 X                            X                                                                                                                                                                                                                 X                                                          X                          X                   X
D-2007-003                                         X                                                                                                                                                                                                                                                                                                          X                         X
D-2006-124                                                                                                                                                                                                                                                                                                                                                   X                         X                    X
D-2006-120                       X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2006-119                                                                                                                                                                                                                                                                                                                                                    X                                             X
D-2006-118                                                                                                                                                                                                                                                                                                                                                    X                        X                    X
D-2006-114                       X                 X                                                                                                                                                                                                                                                                                                         X                         X
D-2006-113                                                                                                                                                                                                                                                                                                                                                   X                                              X
D-2006-112                                                                                                                                                                                                                                                                                        X                                                          X                          X                   X
D-2006-108                                                                                                                                                                                                                                                                                                                                                    X                        X
D-2006-107    FOUO               X                                                                                                                                                                                                                                                                                                                           X                          X
D-2006-102                                                                                                                                                                                                                                                                                                                                                    X                         X
D-2006-094                                                                                                                                                                                            X                                                                                                                                                      X                          X
D-2006-092                                                                                                                                                                                                                                                                                        X                                                          X                         X
15-2006-086   FOUO               X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2006-085                                                                                                                                                                                            X                                                                                                                                                       X                         X
D-2006-081    Classified         X                 X                                                                                                                                                                                                                                                                                                         X                         X                    X
U-2006-076                                                                                                                                                                                            X                                                                                                                                                      X                          X
D-2006-074    FOUO               X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2006-072                                                                                                                                          X                                                                                                                                                                                                         X                         X                   X
D-2006-069    FOUO               X                                                                                                                                                                                                                                                                                                                           X                          X




                                                                                                                                           22
                                                                                                                                           General Property, Plant, and




                                                                                                                                                                                                                                                                                                                            Reconciliation of Net Cost of
                                                  Fund Balance with Treasury




                                                                                                                                                                                                                                                                                                                                                                                Compliance With Laws and
                                                                                                                                                                                                                                                                                                 Other Accounting Entries
                                                                                                                                                                                                                        Environmental Liabilities
                                                                                                                                                                          Material and Contractor-
                                                                                                                 Operating Materials and




                                                                                                                                                                                                                                                    Statement of Net Costs
                                                                                                                                                                          Government-Furnished
                           Financial Management




                                                                                                                                                                                                                                                                                                                            Operations to Budget
                                                                               Accounts Receivable




                                                                                                                                                                                                                                                                             Intragovernmental
                                                                                                                                                                                                     Accounts Payable
                                                                                                                                                                          Acquired Material




                                                                                                                                                                                                                                                                                                                                                            Internal Controls
                                                                                                                                                                                                                                                                             Eliminations




                                                                                                                                                                                                                                                                                                                                                                                Regulations

                                                                                                                                                                                                                                                                                                                                                                                                           Audit Trails
                                                                                                                                           Equipment
                                                                                                     Inventory


                                                                                                                 Supplies
                           Systems
              Type of
Report Number Report
D-2006-068                       X                                                                                                                                                                                                                                                                                                                           X                          X
D-2006-064                       X                                                                                                                                                                                                                                                                                                                           X                         X
D-2006-063                                                                                                                                                                                                                                                                                                                                                   X                          X
D-2006-062                                                                                                                                                                                                                 X                                                                                                                                 X                          X
0-2006-057    Classified         X                 X                                                                                                X                                                 X                                                                                           X                                                          X                          X                   X
D-2006-056                                                                                                              X                                                                                                                                                                                                                                     X                         X
D-2006-054                                                                                                                                                                                                                                                                                        X                                                          X                         X
D-2006-050                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
D-2006-049                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
D-2006-048    FOUO               X                                                                                                                                                                                                                                                                                                                            X                         X                   X
U-2006-047                                                                                                                                                                                                                                                                                                                                                    X                         X                   X
D-2006-046    FOUO               X                                                                                                                                                                                                                                                                                                                           X                         X
D-2006-043                                                                                                                                                                                                                                                                                                                                                    X                         X
D-2006-039                                         X                                                                                                                                                                                                                                                                                                          X                         X                   X
D-2006-03S                                                                                                                                                                                                                                                                                                                                                                             X
U-2006-037                       X                                                                                                                                                                                                                                                                                                                           X                          X
D-2006-034                                                                                                                                                                                                                                                                                                                                                   X                          X
D-2006-033                       X                                                                                                                                                                                                                                                                                                                           X                         X
D-2006-031    FOUO               X                                                                                                                                                                                                                                                                                                                           X                          X
D-2006-030    FOUO               X                                                                                                                                                                                                                                                                                                                           X                          X
D-2006-025                                                                                                                                                                                                                                                                                                                                                    X                         X                   X
D-2006-013                                                                                                                                                                                                                                                                                        X                                                          X
D-2006-012                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
D-2006-011                                         X                                                                                                                                                                                                                                                                                                          X                                             X
D-2006-009                                                                                                                                          X                                                                                                                                                                                                         X                        X                    X
D-2006-008                       X                                                                                                                                                                                                                                                                                                                           X                         X                    X
D-2005-114                       X                                                                                                                  X                                                                                                                                                                                                        X                         X                    X
D-2005-112                                                                                                                                          X                                                                                                                                                                                                        X                          X                   X
D-2005-108                       X                 X                             X                                                                  X                                                 X                                                                                                                                                       X                        X                    X
D-2005-106                       X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2005-105                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2005-104                       X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2005-103                                                                                                                                                                                                                                                                                                                                                   X                         X
15-2005-102                      X                 X                                                                                                                                                                                                                                                                                                          X                         X                   X
D-2005-101                                                                                                                                                                                            X                                                                                                                                                       X                         X
D-20O5-10O                                                                                                                                                                                            X                                                                                                                                                      X                         X
U-2005-097    Classified         X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2005-093    FOUO               X                                                                                                                                                                                                                                                                                                                           X                          X
D-2005-092                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2005-075                                                                                                                                                                                                                                                                                                                                                   X                          X                   X




                                                                                                                                           23
                                                                                                                                           General Property, Plant, and




                                                                                                                                                                                                                                                                                                                            Reconciliation of Net Cost of
                                                  Fund Balance with Treasury




                                                                                                                                                                                                                                                                                                                                                                                Compliance With Laws and
                                                                                                                                                                                                                                                                                                 Other Accounting Entries
                                                                                                                                                                                                                        Environmental Liabilities
                                                                                                                                                                          Material and Contractor-
                                                                                                                 Operating Materials and




                                                                                                                                                                                                                                                    Statement of Net Costs
                                                                                                                                                                          Government-Furnished
                           Financial Management




                                                                                                                                                                                                                                                                                                                            Operations to Budget
                                                                               Accounts Receivable




                                                                                                                                                                                                                                                                             Intragovernmental
                                                                                                                                                                                                     Accounts Payable
                                                                                                                                                                          Acquired Material




                                                                                                                                                                                                                                                                                                                                                            Internal Controls
                                                                                                                                                                                                                                                                             Eliminations




                                                                                                                                                                                                                                                                                                                                                                                Regulations

                                                                                                                                                                                                                                                                                                                                                                                                           Audit Trails
                                                                                                                                           Equipment
                                                                                                     Inventory


                                                                                                                 Supplies
                           Systems
              Type of
Report Number Report
D-2005-074    Classified                                                                                                                                                                              X                                                                                           X                                                          X                          X                   X
D-2005-069    FOUO               X                                                                                                                                                                                                                                                                                                                           X                         X
D-2005-065    FOUO                                                                                                                                                                                                                                                                                                                                           X
D-2005-062                                                                                           X                                                                                                X                                                                                                                                                      X                          X
D-2005-061                                                                                                                                                                                                                                                                                                                                                   X                          X
D-2005-059                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2005-051                                                                                                                                          X                                                                                                                                                                                                        X                         X                    X
D-2005-047                                                                                                                                                                                                                                                                                                                                                   X                          X                   X
D-2005-046                                                                                                                                          X                                                                                                                                                                                                        X                          X
D-2005-040                                                                                                                                                                                                                                                                                                                                                    X                         X                   X
D-2005-036                                                                                                                                                                                                                                                                                                                                                    X                         X
D-2005-035                                                                                                                                          X                                                                                                                                                                                                        X                         X
D-20O5-O26                                         X                                                                                                                                                                                                                                                                                                          X                         X                   X
D-2005-022                                                                                                                                                                                                                                                                                                                                                    X                         X                   X
D-2005-008                                                                                                                                                                                                                                                                                                                                                   X                         X                    X
U-2005-007                                                                                                                                                                                                                 X                                                                                                                                 X                          X
D-2005-004                                                                                                                                                                                                                                                                                                                                                   X                          X
D-2005-003                                                                                                                                                                                                                                                                                                                                                   X                         X
D-2005-001                       X                                                                                                                                                                                                                                                                                                                           X                          X
D-2004-118                                         X                                                                                                                                                                                                                                                                                                         X                          X
D-2004-115    FOUO                                                                                                                                                                                                                                                                                                                                            X                         X
D-2004-114    FOUO                                                                                                                                                                                                                                                                                                                                           X
D-2004-107                                                                                                                                                                                                                                                                                                                                                   X                                              X
D-2004-106                                         X                                                                                                                                                                                                                                                                                                          X                         X
D-2004-099    Classified         X                 X                                                                                                                                                                                                                                              X                                                           X                        X                    X
D-2004-098    FOUO                                                                                                                                                                                                                                                                                                                                           X
D-2004-092                                                                                                                                          X                                                                                                                                                                                                        X                         X                    X
D-2004-084                                                                                                                                                                                                                                                                                        X                                                          X                          X                   X
U-2004-079    Classified                                                                                                                            X                                                                                                                                             X                                                           X                        X                    X
D-2004-075    Classified         X                                                                                                                                                                                                                                                                                                                           X                          X                   X
D-2004-063                                                                                                                                          X                                                                                                                                                                                                         X                         X                   X
D-2004-059                                                                                                                                                                                                                                                                                        X                                                                                     X
D-2004-0 58                                                                                                                                                                                                                                                                                                                                                  X                         X
15-2004-051                                                                                                                                                                                                                                                                                                                                                   X                         X
D-2004-044                       X                                                                                                                                                                                                                                                                                                                            X                         X                   X
D-2004-042    Classified                                                                                                                                                                                                                                                                          X                                                          X                         X                    X
U-2004-041                       X                                                                                                                                                                                                                                                                                                                           X                          X
D-2004-023                       X                 X                                                                                                                                                                                                                                              X                                                          X                          X
D-2004-017                                                                                                                                          X                                                                                                                                                                                                         X                         X                   X
D-2004-004                       X                                                                                                                                                                                                                                                                X                                                          X                          X




                                                                                                                                           24
                                                                                                                                                                                                                                                                                                                        Reconciliation of Net Cost of
                                                Fund Balance with Treasui




                                                                                                                                        General Property, Plant, ar




                                                                                                                                                                                                                                                                                                                                                                            Compliance With Laws am
                                                                                                                                                                                                                                                                                             Other Accounting Entries
                                                                                                                                                                                                                    Environmental Liabilities
                                                                                                                                                                      Material and Contractor-
                                                                                                              Operating Materials and




                                                                                                                                                                                                                                                Statement of Net Costs
                         Financial Management




                                                                                                                                                                      Government-Furnished
                                                                            Accounts Receivable




                                                                                                                                                                                                                                                                                                                        Operations to Budget
                                                                                                                                                                                                                                                                         Intragovernmental
                                                                                                                                                                                                 Accounts Payable
                                                                                                                                                                      Acquired Material




                                                                                                                                                                                                                                                                                                                                                        Internal Controls
                                                                                                                                                                                                                                                                         Eliminations




                                                                                                                                                                                                                                                                                                                                                                            Regulations

                                                                                                                                                                                                                                                                                                                                                                                                      Audit Trails
                                                                                                                                        Equipment
                                                                                                  Inventory


                                                                                                              Supplies
                         Systems
              Type of
Report Number Report
Opinions
D-2008-0 76    Opinion         X                 X                           X                                                                  X                                                 X                                                                                                                                                       X                         X                  X
               FOUO
D-2008-068     Opinion         X                                                                                                                                                                                                                                                                                                                         X                          X
D-2008-035     Opinion         X                                                                                                                                                                                                                                                              X                                                          X                         X                   X
D-20O8-O18     Opinion         X                                                                                                                                                                                                                                                                                                                         X                         X
               FOUO
D-2007-0 74    Opinion         X                                                                                                                                                                                                                                                                                                                         X                          X                  X
               FOUO
D-2007-037     Opinion                                                                                                                                                                            X                                                                                                                                                      X                         X
D-2007-019     Opinion         X                                                                                                                                                                                                                                                                                                                         X                          X                  X
D-2007-017     Opinion         X                                                                                                                                                                                                                                                              X                                                          X                          X
               FOUO
D-2006-045     Opinion         X                                                                                                                                                                                                                                                                                                                          X                         X
D-2006-023     Opinion         X                                                                                                                                                                                                                                                                                                                         X                         X
D-20O6-O21     Opinion         X                                                                                                                                                                                                                                                              X                                                           X                        X
               FOUO
D-2005-032     Opinion         X                                             X                                                                                                                                                                                                                                                                            X                        X
               FOUO
D-2005-031     Opinion         X                                                                                                                                                                                                                                                                                                                         X                          X                  X
D-2005-019     Opinion         X                                                                                                                                                                                                                                                                                                                         X                         X
D-20O5-O18     Opinion         X                                                                                                                                                                                                                                                                                                                          X                         X
Disc [aimers
D-2008-023     Opinion         X                 X                            X                   X                  X                           X                             X                  X                    X                           X                          X               X                                  X                        X                         X                  X
D-20O8-O21     Opinion         X                 X                           X                    X                                             X                                                 X                    X                         X                            X               X                                  X                       X                         X                   X
15-2008-0 20   Opinion         X                                                                  X                                             X                                                 X                                              X                            X               X                                  X                       X                         X                   X
D-2008-017     Opinion         X                 X                            X                   X                                              X                                                X                                                X                                          X                                  X                        X                         X                  X
D-2008-016     Opinion         X                 X                           X                    X                                             X                                                 X                    X                           X                                          X                                                          X                         X                   X
D-20O8-O15     Opinion         X                 X                           X                    X                                             X                                                 X                                                                                           X                                                          X                         X                   X
D-2008-014     Opinion         X                 X                           X                    X                                             X                                                 X                    X                         X                                            X                                                          X                         X                   X
D-2008-011     Opinion         X                                                                  X                  X                           X                                                                                                                            X               X                                                           X                         X                  X
U-2008-010     Opinion         X                                             X                                       X                           X                             X                  X                    X                           X                          X               X                                  X                        X                        X                   X
D-2007-020     Opinion         X                 X                                                X                  X                           X                             X                  X                    X                           X                          X               X                                  X                       X                          X                  X
D-2007-018     Opinion         X                 X                            X                   X                                              X                                                X                    X                           X                          X               X                                  X                        X                         X                  X
D-2007-015     Opinion         X                                                                  X                  X                           X                                                                                                                            X               X                                                          X                          X                  X
D-2007-014     Opinion         X                                                                                     X                          X                              X                                       X                           X                          X               X                                  X                        X                        X                   X
15-2007-013    Opinion         X                                                                  X                                              X                                                X                                                X                          X               X                                  X                        X                         X                  X
D-2007-012     Opinion         X                 X                            X                   X                                                                                               X                                                                                           X                                                           X                         X                  X
D-2007-011     Opinion         X                 X                           X                    X                                             X                                                 X                    X                                                                      X                                                          X                          X                  X
U-2006-022     Opinion         X                 X                           X                    X                  X                          X                              X                  X                    X                           X                          X               X                                  X                       X                         X                   X




                                                                                                                                        25
                                                                                                                                                                                                                                                                                                                         Reconciliation of Net Cost of
                                               Fund Balance with Treasury




                                                                                                                                        General Property, Plant, and




                                                                                                                                                                                                                                                                                                                                                                             Compliance With Laws and
                                                                                                                                                                                                                                                                                              Other Accounting Entries
                                                                                                                                                                                                                     Environmental Liabilities
                                                                                                                                                                       Material and Contractor-
                                                                                                              Operating Materials and




                                                                                                                                                                       Government-Furnished




                                                                                                                                                                                                                                                 Statement of Net Costs
                        Financial Management




                                                                                                                                                                                                                                                                                                                         Operations to Budget
                                                                            Accounts Receivable




                                                                                                                                                                                                  Accounts Payable




                                                                                                                                                                                                                                                                          Intragovernmental
                                                                                                                                                                       Acquired Material




                                                                                                                                                                                                                                                                                                                                                         Internal Controls
                                                                                                                                                                                                                                                                          Eliminations




                                                                                                                                                                                                                                                                                                                                                                             Regulations

                                                                                                                                                                                                                                                                                                                                                                                                        Audit Trails
                                                                                                                                        Equipment
                                                                                                  Inventory


                                                                                                              Supplies
                        Systems
              Type of
Report Number Report
D-2006-020    Opinion         X                 X                            X                                                                   X                                                 X                                                                                                                                                       X                         X                   X
D-2006-019    Opinion         X                                                                   X                  X                           X                                                                                                  X                          X               X                                  X                       X                         X                    X
D-2006-018    Opinion         X                                                                                      X                                                                                                  X                           X                          X               X                                  X                        X                         X                   X
D-2006-017    Opinion         X                 X                            X                    X                                              X                                                 X                    X                                                                      X                                                           X                         X                   X
D-2006-016    Opinion         X                 X                                                 X                                              X                                                 X                                                                                           X                                                           X                         X                   X
D-2006-015    Opinion         X                 X                             X                   X                                              X                                                 X                    X                           X                          X               X                                  X                        X                         X                   X
D-2006-014    Opinion         X                                                                   X                                              X                                                 X                                              X                            X               X                                  X                        X                        X                    X
D-2005-017    Opinion         X                 X                                                 X                  X                           X                              X                                       X                           X                          X               X                                                           X                         X                   X
D-2005-016    Opinion         X                                                                                                                  X                                                 X                                                                                                                              X                        X                         X                   X
D-20O5-O15    Opinion         X                                                                   X                  X                           X                                                                                                  X                          X               X                                  X                        X                         X                   X
U-2005-014    Opinion         X                                                                                      X                           X                                                                      X                           X                          X               X                                  X                        X                         X                   X
D-2005-013    Opinion         X                 X                            X                    X                                              X                                                 X                    X                                                                      X                                                           X                        X                    X
D-2005-012    Opinion         X                 X                            X                    X                                              X                                                 X                                                                                                                                                       X                         X
D-2005-011    Opinion         X                 X                             X                   X                                              X                                                 X                    X                           X                          X               X                                  X                        X                         X                   X
D-2005-010    Opinion         X                                                                   X                                              X                                                 X                                              X                            X               X                                  X                        X                        X                    X
U-2004-036    Opinion         X                 X                                                 X                  X                           X                              X                                       X                           X                          X               X                                  X                        X                         X                   X
D-2004-032    Opinion                                                                                                                            X                                                 X                                                                                                                                                       X                         X                   X
D-2004-031    Opinion         X                                                                                                                                                                                                                                                                                                                            X                        X
D-2004-030    Opinion         X                                                                                                                                                                                                                                                                                                                            X                         X
D-2004-029    Opinion         X                                                                   X                                              X                                                 X                                                X                          X               X                                  X                       X                          X                   X
D-2004-028    Opinion         X                 X                             X                   X                                              X                                                 X                    X                           X                          X               X                                  X                        X                         X                   X
D-2004-027    Opinion         X                 X                                                 X                  X                                                          X                                                                 X                            X               X                                 X                         X                        X                    X
D-2004-026    Opinion         X                 X                                                                    X                           X                              X                                       X                         X                            X               X                                 X                        X                          X                   X




                                                                                                                                        26
Appendix D. DOD Office of Inspector General
Reports

The DOD OIG issued 255 audit reports that covered some aspect of financial
management functions within the Military Departments and Defense agencies. To obtain
electronic copies of DOD OIG reports, please visit
http://www.dodig.mil/audit/reports/index.html. Following is a listing of the reports.

D-2008-139, “Defense Civilian Pay System Controls Placed in Operation and Tests of
Operating Effectiveness for the Period October 1, 2007, through March 31, 2008,”
September 30, 2008

D-2008-138, “Defense Information Systems Agency Controls Over the Center for
Computing Services Placed in Operation and Tests of Operating Effectiveness for the
Period April 1, 2007, through March 31, 2008,” September 30, 2008

D-2008-132, “Ocean Freight Transportation Payments Using PowerTrack,”
September 26, 2008

D-2008-126, “Internal Controls Over the Army Military Equipment Baseline Valuation
Effort,” August 29, 2008

D-2008-123, “Internal Controls Over Navy General Fund, Cash and Other Monetary
Assets Held Outside of the Continental United States,” August 26, 2008

D-2008-121, “Internal Controls for Air Force General Fund Cash and Other Monetary
Assets,” August 18, 2008

D-2008-117, “Accuracy of Mechanization of Contract Administration Services Accounts
Payable Information,” August 14, 2008

D-2008-109, “Controls and Compliance of the Joint Personnel Adjudication
System,” July 21, 2008

D-2008-108, “Agreed-Upon Procedures Related to the 10th Edition of the Army Chief
Financial Officers Strategic Plan,” July 18, 2008

D-2008-106, “U.S. European Command Headquarters Government Purchase Card
Controls,” August 21, 2008 (Reissued)

D2008-105, “Defense Emergency Response Fund,” June 20, 2008

D-2008-103, “Memorandum Report on Internal Controls Over the U.S. Special
Operations Command Military Equipment Baseline Valuation Effort,” June 13, 2008

                                          27


D-2008-102, “Status of Prior Recommendations Related to the Defense Intelligence
Agency Financial Statements,” June 17, 2008

D-2008-101, “General Controls Over the Standard Accounting, Budgeting, and Reporting
System (SABRS),” June 6, 2008

D-2008-098, “Internal Controls Over Payments Made in Iraq, Kuwait and Egypt,” May
22, 2008

D-2008-096, “Identification and Reporting of Improper Payments by the Defense
Logistics Agency,” May 20, 2008

D-2008-093, “Processing of Deceased Retired Military Members’ Suspended Accounts,”
May 14, 2008

D-2008-092, “Controls Over Department of the Navy Working Capital Fund Inventory
Stored at Non-Defense Logistics Agency Organizations,” May 13, 2008

D-2008-091, “General Controls of the Capital Asset Management System-Military
Equipment,” May 13, 2008

D-2008-090, “Controls Over Reconciling Army Working Capital Fund Inventory
Records,” May 13, 2008

D-2008-085, “Independent Auditor’s Report on the FY 2007 Performance Summary
Report for DOD National Drug Control Program Activities,” May 2, 2008

D-2008-084, “Journal Vouchers Processed by the Defense Finance and Accounting
Service for the Navy Working Capital Fund,” April 25, 2008

D-2008-083, “Obligation of Funds for Ship Maintenance and Repair at the U.S. Fleet
Forces Command Regional Maintenance Centers,” April 25, 2008

D-2008-081, “Controls Over the Reconciliation of Defense Logistics Agency Non-
Energy Inventory Balances,” April 25, 2008

D-2008-080, “DOD Accounting to Support DOD Personnel During Times of Civil
Emergency,” April 25, 2008

D-2008-079, “Management of Incremental Funds on the Air Force Research,
Development, Test and Evaluation Contracts,” April 8, 2008

D-2008-077, “United States Army Corps of Engineers Financial Management System,”
April 8, 2008




                                          28
D-2008-076, “Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil
Works, FY 2007 Basic Financial Statements,” March 31, 2008

D-2008-074, “Memorandum Report on Internal Controls Over the Air Force Military
Equipment Baseline Valuation Effort,” April 1, 2008

D-2008-072, “Controls Over Army Real Property Financial Reporting,” March 28, 2008

D-2008-069, “Controls Over Army Working Capital Fund Inventory Stored by
Organizations Other Than Defense Logistics Agency,” March 28, 2008

D-2008-068, “Endorsement of the Deloitte and Touche LLP Management Letter on the
FY 2007 Military Retirement Fund Financial Statements Opinion Audit,” March 26,
2008

D-2008-063, “Vendor Pay Disbursement Cycle, Air Force General Fund,” March 12,
2008

D-2008-061, “Controls Over Funds Used by the Air Force and National Guard Bureau
for the National Drug Control Program,” March 7, 2008

D-2008-055, “Internal Controls over FY 2007 Army Adjusting Journal Vouchers,”
February 22, 2008

D-2008-053, “Defense Finance and Accounting Service Kansas City Federal Managers’
Financial Integrity Act, Federal Financial Management Improvement Act, and Federal
Information Security Management Act Reporting for FY 2005,” February 19, 2008

D-2008-052, “Disbursing Operations Directorate at Defense Finance and Accounting
Service Indianapolis Operations,” February 19, 2008

D-2008-049, “Internal Controls Over Army Selective Reenlistment Bonuses,” February
13, 2008

D-2008-046, “Defense Finance and Accounting Service Compliance with the Debt
Collection and Improvement Act of 1996 for Department of the Navy,” February 6, 2008

D-2008-044, “Adequacy of Procedures for Reconciling Fund Balance with Treasury at
the National Geospatial-Intelligence Agency,” January 31, 2008

D-2008-043, “Identification and Reporting of Improper Payments – Refunds from DOD
Contractors,” January 31, 2008

D-2008-042, “Reporting of Contract Financing Interim Payments on the DOD Financial
Statements,” January 31, 2008


                                         29
D-2008-041, “Management of the General Fund Enterprise Business System,” January
14, 2008

D-2008-040, “Defense Retiree and Annuitant Pay System and the Deployable Disbursing
System Compliance with the Defense Business Transformation System Certification
Criteria,” January 4, 2008

D-2008-035, “Endorsement of the Qualified Opinions on the Fiscal Year 2007 and 2006
(Restated) DOD Medicare-Eligible Retiree Health Care Fund Financial Statements,”
December 13, 2007

D-2008-031, “Standard Accounting and Reporting System Compliance with Defense
Business Transformation System Certification Criteria,” December 10, 2007

D-2008-025, “Internal Controls over DOD of Defense Transit Subsidy Program within
the National Capital Region,” November 23, 2007

D-2008-023, “Independent Auditor’s Report on the FY 2007 Department of Defense
Financial Statements,” November 12, 2007

D-2008-021, “Independent Auditor’s Report on the FY 2007 Army General Fund
Financial Statements,” November 9, 2007

D-2008-020, “Independent Auditor’s Report on the FY 2007 Army Working Capital
Fund Financial Statements,” November 9, 2007

D-2008-018, “Endorsement of the Unqualified Opinion on the FY 2007 DOD Military
Retirement Fund Financial Statements,” December 13, 2007

D-2008-017, “Independent Auditor’s Report on the Fiscal Year 2007 Navy Working
Capital Fund-Marine Corps Financial Statements,” November 8, 2007

D-2008-016, “Independent Auditor’s Report on the Fiscal Year 2007 United States
Marine Corps General Fund Financial Statements,” November 8, 2007

D-2008-015, “Independent Auditor’s Report on Department of the Navy Working Capital
Fund FY 2007 Financial Statements,” November 8, 2007

D-2008-014, “Independent Auditor’s Report on the FY 2007 Department of the Navy
General Fund Financial Statements,” November 8, 2007

D-2008-011, “Independent Auditor’s Report on the FY 2007 Air Force Working
Capital Fund Financial Statements,” November 8, 2006

D-2008-010, “Independent Auditor’s Report on the FY 2007 Air Force General Fund
Financial Statements,” November 8, 2006

                                         30
D-2008-008, “Defense Finance and Accounting Service Columbus Processes for
Consolidating and Compiling Other Defense Organizations Financial Data,” October 30,
2007

D-2008-006, “Automated Time Attendance and Production System’s Compliance with
the Defense Business Transformation System Certification Criteria,” October 26, 2007

D-2008-005, “National Security Agency Accounts Payable,” October 23, 2007

D-2008-003, “Auditability Assessment of the Defense Intelligence Agency Fund Balance
with Treasury and Appropriations Received,” October 16, 2007

D-2008-002, “DOD Salary Offset Program,” October 9, 2007

D-2008-001, “Government Purchase Card Controls at DOD Schools in Korea,”
October 11, 2007

D-2007-133, “Defense Civilian Pay System Controls Placed in Operation and Tests of
Operating Effectiveness for the Period of July 1, 2006, Through June 30, 2007,”
September 28, 2007

D-2007-129, “Civilian Payroll and Withholding Data For FY 2007,” September 28, 2007

D-2007-122, “Report of Marine Corps Internal Controls Over Military Equipment
Funds,” September 11, 2007

D-2007-121, “Emergency Supplemental Appropriations for DOD Needs Arising From
Hurricane Katrina at Selected DOD Components,” September 12, 2007

D-2007-120, “U.S. Pacific Command Headquarters Government Purchase Card
Controls,” August 29, 2007

D-2007-117, “Missile Defense Agency Purchases for and from Governmental Sources,”
August 20, 2007

D-2007-114, “DOD Garnishment Program,” July 19, 2007

D-2007-113, “Consolidation of Boeing Pension Accounting Records for Business
Acquisitions,” July 18, 2007

D-2007-110, “Identification and Reporting of Improper Payments through Recovery
Auditing,” July 9, 2007

D-2007-109, “Special Operations Command Governmental Purchases,” July 9, 2007




                                          31


D-2007-102, “Air Force Host and Tenant Agreements Between the 50th Space Wing, the
Joint National Integration Center, and Tenants,” May 22, 2007

D-2007-101, “DFAS Corporate Database/DFAS Corporate Warehouse Compliance with
the Defense Business Transformation Certification Criteria,” May 18, 2007

D-2007-098, “Use and Control of Intragovernmental Purchases at the Defense
Intelligence Agency,” May 18, 2007

D-2007-097, “Controls Over Military Personnel, Army Appropriation Permanent Change
of Station Travel Advances and Suspense Accounts,” May 16, 2007

D-2007-096, “Information Assurance Controls for the Defense Civilian Pay System,”
May 14, 2007

D-2007-095, “Consolidation of Raytheon Pension Accounting Records for Selected
Business Acquisitions,” May 14, 2007

D-2007-094, “Consolidation of Lockheed Martin Pension Accounting Records for
Selected Business Acquisitions,” May 14, 2007

D-2007-093, “DOD Compliance with the Federal Managers’ Financial Integrity Act of
1982,” May 8, 2007

D-2007-091, “Memorandum Report on Assessment of Defense Accounts Payable
Compliance with Generally Accepted Accounting Principles,” May 7, 2007

D-2007-088, “Special Army Reports Prepared by Defense Finance and Accounting
Service Indianapolis Operations,” April 27, 2007

D-2007-087, “Internal Controls over Army General Fund Transactions Processed by the
Business Enterprise Information Services,” April 25, 2007

D-2007-086, “Incoming Reimbursable Orders for the National Security Agency,”
April 24, 2007

D-2007-085, “Reporting of Navy Sponsor Owned Material Stored at the Naval Air
Systems Command Activities,” April 23, 2007

D-2007-083, “Transition Expenditures for DOD Personnel Security Investigations for FY
2005,” April 10, 2007

D-2007-082, “Defense Information Systems Agency Controls over the Center for
Computing Services,” April 9, 2007




                                         32
D-2007-081, “Financial Management of Hurricane Katrina Relief Efforts at the U.S.
Army Corps of Engineers,” April 6, 2007

D-2007-077, “Timeliness of Payments for Reenlistment Bonuses in the Army,”
March 28, 2007

D-2007-075, “Department of the Army Purchases from Governmental Sources,”
March 22, 2007

D-2007-074, “Endorsement of the Deloitte & Touche LLP Management Letter on FY
2006 Military Retirement Fund Financial Statements,” March 21, 2007

D-2007-073, “Financial Data Processed by the Medical Expense and Performance
Reporting System,” March 21, 2007

D-2007-071, “Air Force General Fund Disbursements as Reported in the Statement of
Budgetary Resources,” March 15, 2007

D-2007-065, “Controls Over the Prevalidation of DOD Commercial Payments,” March
02, 2007

D-2007-063, “Agreed-Upon Procedures Covering the Financial Reporting for
Nonappropriated Fund Instrumentalities and Related Activities,” March 1, 2007

D-2007-062, “Department of the Navy Purchases for and from Governmental Sources,”
February 28, 2007

D-2007-061, “Defense Finance and Accounting Service Dayton Network Compliance
with the Prompt Payment Act,” March 1, 2007

D-2007-059, “Vendor Pay Disbursement Cycle, Air Force General Fund: Financial
Accounting,” February 9, 2007

D-2007-058, “Controls over the Army, General Fund, Fund Balance With Treasury
Journal Voucher Adjustments,” February 8, 2007

D-2007-057, “Use and Controls over Military Interdepartmental Purchase Requests at the
National Geospatial-Intelligence Agency,” February 13, 2007

D-2007-056, “Integrated Accounts Payable System Compliance with the Defense
Business Transformation System Certification Criteria,” February 7, 2007

D-2007-052, “Independent Auditor’s Report on the DOD FY 2006 Detailed Report of the
Funds Obligated for National Drug Control Program Activities,” January 29, 2007




                                          33


D-2007-048, “Reporting of Navy Sponsor Owned Material Stored at the Space and Naval
Warfare Systems Centers,” January 26, 2007

D-2007-041, “Navy General Fund Vendor Payments Processed by Defense Finance and
Accounting Service,” January 2, 2007

D-2007-040, “The General and Application Controls over the Financial Management
System at the Military Sealift Command,” January 2, 2007

D-2007-037, “Endorsement of the Management Letter on Internal Controls over
Financial Reporting for the FY 2006 DOD Medicare-Eligible Retiree Health Care Fund
Financial Statements,” December 19, 2006

D-2007-035, “FY2006 Air Force Basic Allowance for Housing,” December 14, 2006

D-2007-028, “Audit of Controls Over Army Cash and Other Monetary Assets,”
November 24, 2006

D-2007-027, “Vendor Pay Disbursement Cycle, Air Force General Fund: Payments to
Vendors,” November 24, 2006

D-2007-024, “Management and Use of the Defense Travel System,” November 13, 2006

D-2007-022, “Defense Information Systems Agency Controls of the Center for
Computing Services Placed in Operation and Tests of Operating Effectiveness for the
Period December 1, 2005, through July 31, 2006,” November 15, 2006

D-2007-020, “Independent Auditor’s Report on the Fiscal Year 2006 Department of
Defense Agency-Wide Financial Statements,” November 12, 2006

D-2007-019, “Endorsement of the Unqualified Opinion on the FY 2006 Military
Retirement Fund Financial Statements,” November 8, 2006

D-2007-018, “Independent Auditor’s Report on the Fiscal Year 2006 Army Fund
Financial Statements,” November 08, 2006

D-2007-017, “Endorsement of the Qualified Opinion on the Fiscal Year 2006 DOD
Medicare-Eligible Retiree Health Care Fund Financial Statements,” November 8, 2006

D-2007-015, “Independent Auditor’s Report on the Fiscal Year 2006 Air Force Working
Capital Fund Financial Statements,” November 8, 2006

D-2007-014, “Independent Auditor’s Report on the Fiscal Year 2006 Air Force General
Fund Financial Statements,” November 8, 2006




                                          34
D-2007-013, “Independent Auditor’s Report on the Fiscal Year 2006 Army Working
Capital Fund Financial Statements,” November 8, 2006

D-2007-012, “Independent Auditor’s Report on the Fiscal Year 2006 Department of the
Navy Working Capital Fund Financial Statements,” November 8, 2006

D-2007-011, “Independent Auditor’s Report on the Fiscal Year 2006 Department of the
Navy General Fund Financial Statements,” November 8 2006

D-2007-009, “Internal Controls Over Inventory Stored at Defense Logistics Agency
Distribution Depots,” November 1, 2006

D-2007-004, “Accounting for Department of the Navy General Fund Accounts
Receivable,” October 12, 2006

D-2007-003, “Internal Controls over the Army General Fund, Note 3, ‘Fund Balance
With Treasury,’ Disclosures,” October 10, 2006

D-2006-124, “Management of the Purchase Card Program at the North American
Aerospace Defense Command and United States Northern Command,” September 28,
2006

D-2006-120, “Report on Defense Civilian Pay System Controls Placed in Operation and
Test of Operating Effectiveness For the Period July 1, 2005, through June 30, 2006,”
September 28, 2006

D-2006-119, “Civilian Payroll and Withholding Data for FY 2006,” September 27, 2006

D-2006-118, “Financial Management of Hurricane Katrina Relief Efforts at Selected
DOD Components,” September 27, 2006

D-2006-114, “Budget Execution Reporting at Defense Finance and Accounting Service
Indianapolis,” September 25, 2006

D-2006-113, “Consolidation of Northrop Grumman Pension Accounting Records for the
Acquisition of TRW,” September 22, 2006

D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation,”
September 22, 2006

D-2006-108, “Providing Interim Payments to Contractors in Accordance with the Prompt
Payment Act,” September 01, 2006

D-2006-107, “Defense Departmental Reporting System and Related Financial Statement
Compilation Process Controls Placed in Operation and Tests of Operating Effectiveness
for the Period October 1, 2004, through March 31, 2005,” August 18, 2006

                                         35
D-2006-102, “Marine Corps Governmental Purchases,” July 31, 2006

D-2006-094, “Improper Payments for Defense Fuel,” June 29, 2006

D-2006-092, “Controls over Abnormal Balances in Financial Data Supporting Financial
Statements for Other Defense Organizations,” June 8, 2006

D-2006-086, “General and Application Controls at the Defense Information Systems
Agency, Center for Computing Services,” May 18, 2006

D-2006-085, “Vendor Pay Disbursement Cycle, Air Force General Fund: Funds
Control,” May 15, 2006

D-2006-081, “Recording and Reporting of Transactions by Others for the National
Security Agency,” April 26, 2006

D-2006-076, “DOD Compliance with the Prompt Payment Act on Payments to
Contractors,” April 19, 2006

D-2006-074, “Technical Report on the Defense Civilian Pay System General and
Application Controls,” April 12, 2006

D-2006-072, “Internal Controls Related to Department of Defense Real Property,”
April 6, 2006

D-2006-069, “Technical Report on the Defense Business Management System,” April 3,
2006

D-2006-068, “Implementation of the Business Enterprise Information Services for the
Army General Fund,” March 31, 2006

D-2006-064, “Appropriated Funds Distribution Within the Program Budget Accounting
System,” March 17, 2006

D-2006-063, “Internal Controls Over Departmental Expenditure Operations at Defense
Finance and Accounting Service Indianapolis,” March 10, 2006

D-2006-062, “Internal Controls Over Compiling and Reporting Environmental Liabilities
Data,” March 15, 2006

D-2006-057, “Corrective Actions for Previously Identified Deficiencies Related to the
National Geospatial-Intelligence Agency Financial Statements,” February 28, 2006

D-2006-056, “Vendor Pay Disbursement Cycle, Air Force General Fund: Contract
Formation and Funding,” March 6, 2006


                                           36
D-2006-054, “DOD Process for Reporting Contingent Legal Liabilities,” February 24,
2006

D-2006-050, “Accuracy of Navy Contract Financing Amounts,” February 13, 2006

D-2006-049, “Audit of the FY 2004 Marine Corps Entitlements and Withholding,”
February 10, 2006

D-2006-048, “Report on Reliability of Financial Data Accumulated and Reported by the
Space and Naval Warfare System Centers,” January 31, 2006

D-2006-047, “Independent Auditor’s Report on the DOD FY 2005 Detailed Accounting
Report of the Funds Obligated for National Drug Control Program Activities,”
January 26, 2006

D-2006-046, “Technical Report on the Defense Property Accountability System,”
January 27, 2006

D-2006-045, “Endorsement of the Deloitte & Touche LLP Management Letter on the FY
2005 Military Retirement Fund Financial Statements Opinion Audit,” January 10, 2006

D-2006-043, “Army Management of the Army Game Project Funding,” January 6, 2006

D-2006-039, “Internal Controls Over the Compilation of the Air Force, General Fund,
Fund Balance With Treasury for FY 2004,” December 22, 2005

D-2006-038, “DOD Compliance with the Government Performance and Results Act of
1993,” December 13, 2005

D-2006-037, “Puget Sound Naval Shipyard Mission-funded Prototype,” December 9,
2005

D-2006-034, “Accuracy of the Contributions to the Medicare-Eligible Retiree Health
Care Fund,” December 7, 2005

D-2006-033, “Defense Finance and Accounting Service Corporate Database User Access
Controls,” December 7, 2005

D-2006-031, “Report on Penetration Testing at the Defense Information Systems
Agency, Center for Computing Services,” November 30, 2005

D-2006-030, “Report on Diagnostic Testing at the Defense Information Systems Agency,
Center for Computing Services,” November 30, 2005

D-2006-025, “Accuracy of Air Force Contract Financing Amounts,” November 14, 2005


                                          37


D-2006-023, “Endorsement of the Unqualified Opinion on the FY 2005 Military
Retirement Fund Financial Statements,” November 04, 2005

D-2006-022, “Independent Auditor’s Report on the Fiscal Year 2005 Department of
Defense Agency-Wide Financial Statements,” November 12, 2005

D-2006-021, “Endorsement of the Qualified Opinion on the FY 2005 DOD Medicare-
Eligible Retiree Health Care Fund Financial Statements,” November 8, 2005

D-2006-020, “Independent Auditor’s Report on the Fiscal Year 2005 U.S. Army Corps of
Engineers, Civil Works, Financial Statements,” November 8, 2005

D-2006-019, “Independent Auditor’s Report on the Fiscal Year 2005 Air Force Working
Capital Fund Financial Statements,” November 8, 2005

D-2006-018, “Independent Auditor’s Report on the Fiscal Year 2005 Air Force General
Fund Financial Statements,” November 8, 2005

D-2006-017, “Independent Auditor’s Report on the Fiscal Year 2005 Department of the
Navy General Fund Financial Statements,” November 8, 2005

D-2006-016, “Independent Auditor’s Report on the Fiscal Year 2005 Department of the
Navy Working Capital Fund Financial Statements,” November 8, 2005

D-2006-015, “Independent Auditor’s Report on the Fiscal Year 2005 Army General Fund
Financial Statements,” November 8, 2005

D-2006-014, “Independent Auditor’s Report on the Fiscal Year 2005 Army Working
Capital Fund Financial Statements,” November 8, 2005

D-2006-013, “Compiling and Recording Financial Adjustments Related to DOD
Commercial Payments,” November 8, 2005

D-2006-012, “Controls Over Funds Used by DOD for the National Drug Control
Program,” November 7, 2005

D-2006-011, “The Foreign Military Sales Trust Fund Cash Management,” November 7,
2005

D-2006-009, “Independent Examination of Valuation and Completeness of U.S. Army
Corps of Engineers Buildings and Other Structures,” October 28, 2005

D-2006-008, “Report on Defense Departmental Reporting System and Related Financial
Statement Compilation Process Controls Placed in Operation and Tests of Operating
Effectiveness for the Period October 1, 2004 through March 31, 2005,” October 24, 2005


                                          38


D-2005-114, “Development of the DOD Baseline for Military Equipment,”
September 30, 2005

D-2005-112, “Review of the Development of the DOD Baseline for Military
Equipment,” September 30, 2005

D-2005-108, “Review of the U.S. Army Corps of Engineers, Civil Works, Balance Sheet
Reporting and Financial Statement Compilation,” September 16, 2005

D-2005-106, “Report on Defense Civilian Pay System Controls Placed in Operation and
Tests of Operating Effectiveness for the Period October 1, 2004 through June 30, 2005,”
September 15, 2005

D-2005-105, “Report on Defense Information Systems Agency, Center for Computing
Services Controls Placed in Operation and Tests of Operating Effectiveness for the
Period October 1, 2004 through April 30, 2005,” September 6, 2005

D-2005-104, “Report in Defense Business Management System Controls Placed in
Operation and Tests of Operating Effectiveness for the Period October 1, 2004 through
May 15, 2005,” August 26, 2005

D-2005-103, “Development and Management of the Army Game Project,” August 24,
2005

D-2005-102, “Defense Departmental Reporting System - Audited Financial Statements
Report Map,” August 17, 2005

D-2005-101, “DOD Recovery Audit Program,” August 17, 2005

D-2005-100, “Identification and Reporting of DOD Erroneous Payments,” August 17,
2005

D-2005-097, “Auditability Assessment for Financial Statements of the Defense
Intelligence Agency,” August 18, 2005

D-2005-093, “Technical Report on the Standard Finance System,” August 17, 2005

D-2005-092, “Report on Defense Property Accountability System Controls Placed in
Operation and Test of Operating Effectiveness for the Period September 1, 2004 through
April 30, 2005,” July 7, 2005

D-2005-075, “Defense Finance and Accounting Service Data Call Submissions and
Internal Control Processes for Base Realignment and Closure 2005,” May 27, 2005

D-2005-74, “Support for Reported Obligations for the National Security Agency,”
May 31, 2005

                                          39
D-2005-069, “Audit of the General and Application Controls of the Defense Civilian Pay
System,” May 13, 2005

D-2005-065, “Termination of the Audit of the DOD Midterm Solution for Military
Equipment Valuation,” May 9, 2005

D-2005-062, “Recording and Accounting for DOD Contract Financing Payments,”
May 10, 2005

D-2005-061, “Appropriations Received and Net Transfers on the FY 2004 DOD Agency-
Wide Financial Statements,” May 10, 2005

D-2005-059, “Report on Standard Finance System Controls Placed in Operation and
Tests of Operating Effectiveness for the Period October 1, 2004 through March 31,
2005,” May 30, 2005

D-2005-051, “Independent Examination of the Land Assets at the U.S. Army Corps of
Engineers, Civil Works,” April 6, 2005

D-2005-047, “Contracts Classified as Unreconcilable by the Defense Finance and
Accounting Service Columbus (Contract DAAA09-81-G-2008/0031),” April 6, 2005

D-2005-046, “Independent Examination of the Rights to U.S. Army Corps of Engineers
Buildings and Other Structures,” March 25, 2005

D-2005-040, “Contracts Classified as Unreconcilable by the Defense Finance and
Accounting Service Columbus,” March 14, 2005

D-2005-036, “DOD Civilian Payroll Withholding Data for FY 2004,” February 17, 2005

D-2005-035, “Existence of U.S. Army Corps of Engineers Buildings and Other
Structures,” February 15, 2005

D-2005-032, “Endorsement of the Deloitte & Touche LLP Management Letter on the FY
2004 Military Retirement Fund Financial Statements Opinion Audit,” January 27, 2005

D-2005-031, “Endorsement of the Management Letter on Internal Controls Over
Financial Reporting for the FY 2004 DOD Medicare Eligible Retiree Health Care Fund
Financial Statements,” January 31, 2005

D-2005-026, “Reliability of U.S. Army Corps of Engineers, Civil Works, Fund Balance
With Treasury and Unexpended Appropriations,” December 28, 2004

D-2005-022, “Contracts Classified as Unreconcilable by the Defense Finance and
Accounting Service (Contract No. DAAH01-92-C-R399),” December 2, 2004


                                          40
D-2005-019, “Endorsement of the Qualified Opinion on the FY 2004 DOD Medicare-
Eligible Retiree Health Care Fund Financial Statements,” November 8, 2004

D-2005-018, “Endorsement of the Unqualified Opinion on the FY 2004 Military
Retirement Fund Financial Statements,” November 8, 2004

D-2005-017, “Independent Auditor’s Report on the Fiscal Year 2004 DOD Agency-Wide
Financial Statements,” November 8, 2004

D-2005-016, “Independent Auditor’s Report on the Fiscal Year 2004 U.S. Army Corps of
Engineers, Civil Works, Financial Statements,” November 8, 2004

D-2005-015, “Independent Auditor’s Report on the Air Force Working Capital Fund
Fiscal Year 2004 Principal Financial Statements,” November 8, 2004

D-2005-014, “Independent Auditor’s Report on the Air Force General Funds Fiscal Year
2004 Principal Financial Statements,” November 8, 2004

D-2005-013, “Independent Auditor’s Report on the Fiscal Year 2004 Department of the
Navy General Fund Financial Statements,” November 8, 2004

D-2005-012, “Independent Auditor’s Report on the Fiscal Year 2004 Department of the
Navy Working Capital Fund Financial Statements,” November 8, 2004

D-2005-011, “Independent Auditor’s Report on the Fiscal Year 2004 Army General Fund
Financial Statements,” November 8, 2004

D-2005-010, “Independent Auditor’s Report on the Fiscal Year 2004 Army Working
Capital Fund Financial Statements,” November 8, 2004

D-2005-008, “Assessment of the U.S. Army Corps of Engineers, Civil Works, FY 2004
Beginning Financial Statement Balance of Construction-In-Progress,” October 28, 2004

D-2005-007, “Military Retirement Fund Processes Related to Deceased Retirees’
Accounts,” October 25, 2004

D-2005-004, “Promptness of FY 2005 First Quarter DOD Payments to DOD of the
Treasury for District of Columbia Water and Sewer Services,” October 15, 2004

D-2005-003, “DOD Antideficiency Act Reporting and Disciplinary Process,” October 14,
2004

D-2005-001, “Report on Defense Civilian Pay System Controls Placed in Operation and
Test of Operating Effectiveness for the Period March 1, 2004 through September 10,
2004,” October 1, 2004


                                         41
D-2004-118, “Army General Fund Controls Over Abnormal Balances For Field
Accounting Activities,” September 28, 2004

D-2004-115, “The Followup on the Government Accountability Office and U.S. Army
Audit Agency Recommendations for the U.S. Army Corps of Engineers,” September 21,
2004

D-2004-114, “The Followup on the Government Accountability Office and U.S. Army
Audit Agency Recommendations for the U.S. Army Corps of Engineers,” September 21,
2004

D-2004-107, “U.S. Army Corps of Engineers Financial Information Imported into the
Defense Departmental Reporting System - Audited Financial Statements,” August 5,
2004

D-2004-106, “Selected Controls Over the Army Fund Balance with Treasury at Defense
Finance and Accounting Service Indianapolis,” August 5, 2004

D-2004-099, “Reliability of National Security Agency FY 2003 Financial Statements,”
July 15, 2004

D-2004-098, “Status of the General Accounting Office and U.S. Army Audit Agency
Recommendations for the U.S. Army Corps of Engineers,” June 23, 2004

D-2004-092, “Corp of Engineers Equipment Reporting on Financial Statements for
FY 2003,” June 22, 2004

D-2004-084, “Antideficiency Act Investigation of the Research, Development, Test and
Evaluation, Defense-Wide, Appropriation Account 97 FY 1989/1990 0400,” May 28,
2004

D-2004-079, “Reliability of the Defense Intelligence Agency FY 2003 Financial
Statements,” April 29, 2004

D-2004-075, “Reliability of the FY 2003 Financial Statements for the National
Geospatial-Intelligence Agency,” April 23, 2004

D-2004-063, “Controls Over U.S. Army Corps of Engineers Buildings and Other
Structures,” March 26, 2004

D-2004-059, “Assets Depreciation Reported on the U.S. Army Corps of Engineers FY
2002 Financial Statements,” March 16, 2004

D-2004-058, “Early Payment of Invoices by the Defense Finance and Accounting Service
Columbus,” March 12, 2004


                                          42
D-2004-051, “DOD Payroll Withholding Data for FY 2003,” February 6, 2004

D-2004-044, “Subsidiary Ledgers at the U.S. Army Corps of Engineers,” January 16,
2004

D-2004-042, “Controls Over Obligations at National Geospatial-Intelligence Agency,”
January 14, 2004

D-2004-041, “The Security of the Army Corps Of Engineers Enterprise Infrastructure
Services Wide-Area Network,” December 26, 2003

D-2004-036, “Independent Auditor’s Report on Department of Defense, Fiscal Year 2003
Principal Financial Statements,” December 10, 2003

D-2004-032, “Independent Auditor’s Report on the U.S. Army Corps of Engineers, Civil
Works, Fiscal Year 2003 Principal Financial Statements,” December 3, 2003

D-2004-031, “Independent Auditor’s Report on Department of the Navy Working Capital
Fund Fiscal Year 2003 Principal Financial Statements,” December 3, 2003

D-2004-030, “Independent Auditor’s Report on Department of the Navy General Fund
Fiscal Year 2003 Principal Financial Statements,” December 3, 2003

D-2004-029, “Independent Auditor’s Report on the Army Working Capital Fund Fiscal
Year 2003 Principal Financial Statements,” December 3, 2003

D-2004-028, “Independent Auditor’s Report on the Army General Funds Fiscal Year
2003 Principal Financial Statements,” December 3, 2003

D-2004-027, “Independent Auditor’s Report on the Air Force Working Capital Fund
Fiscal Year 2003 Principal Financial Statements,” December 4, 2003

D-2004-026, “Independent Auditor’s Report on the Air Force General Funds Fiscal Year
2003 Principal Financial Statements,” December 4, 2003

D-2004-023, “Corps of Engineers Financial Management System Accounting Processes,”
November 18, 2003

D-2004-017, “Reliability of Construction-in-Progress in the U.S. Army Corps of
Engineers, Civil Works, Financial Statements,” November 7, 2003

D-2004-004, “Contracts Awaiting Financial Adjustments at the Defense and Accounting
Service Columbus,” October 24, 2003




                                          43


